--Case: 20-3493

(2 of 3)

-Document:-8-2 - -Filed: 08/.10/2020__Rage:_1

No. 20-3493

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ANDREY BRIDGES,
Petitioner-Appellant,
v.

DAVID W. GRAY, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

Aug 10, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, GILMAN, and LARSEN, Circuit Judges.
“Every federal appellate court has a special obligation to satisfy itself ... of its own
jurisdiction ....” Alston v. Advanced Brands & Importing Co., 494 F.3d 562, 564 (6th Cir. 2007)
(quoting Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 95 (1998)). Generally, in a civil case
where the United States, a United States agency, or a United States officer or employee is not a
party, a notice of appeal must be filed within thirty days after the judgment or order appealed from
is entered. 28 U.S.C. § 2107(a); Fed. R. App. P. 4(a)(1)(A).
In 2015, Andrey Bridges filed a petition for a writ of habeas corpus under 28 U.S.C. § 2254.
The district court denied part of the habeas petition on the merits and dismissed the remainder on
procedural grounds. Bridges appealed (appeal No. 19-3297), and this court denied his application
for a certificate of appealability. Bridges v. Gray, No. 19-3297 (6th Cir. Nov. 21, 2019).
While appeal No. 19-3297 was pending, Bridges filed a Federal Rule of Civil Procedure
60(b) motion to reopen his habeas case. The district court denied the Rule 60(b) motion on July
12, 2019, for lack of jurisdiction. On April 22, 2020, Bridges filed a notice of appeal from the
order denying his Rule 60(b) motion.

Case: 20-3493

Document: 8-2

Filed: 08/10/2020

Page: 2

No. 20-3493

-2Any notice of appeal from the July 12, 2019, order denying the Rule 60(b) motion was due
to be filed on or before August 12, 2019. See 28 U.S.C. § 2107(a); Fed. R. App. P. 4(a)(1)(A),
26(a). But Bridges waited until April 22, 2020, to appeal that order. Bridges’s failure to timely
file a notice of appeal deprives this court of jurisdiction. Compliance with the statutory deadline
in § 2107(a) is a mandatory, jurisdictional prerequisite that this court may not waive. Hamer v.
Neighborhood Hous. Servs. of Chi., 138 S. Ct. 13, 21 (2017); Bowlesv. Russell, 551 U.S. 205, 214
(2007). And the statutory provisions permitting the district court to extend or reopen the time to
file a notice of appeal do not apply here. See 28 U.S.C. § 2107(c) (permitting the district court to
extend the time to file a notice of appeal in certain limited situations if the party moves for an
extension no more than 30 days after the deadline); 28 U.S.C. § 2107(c)(l)-(2) (permitting the
district court to reopen the deadline for 14 days if the party did not receive notice about the entry
of a judgment and the party makes a motion within the time requirements).
Accordingly, appeal No. 20-3493 is DISMISSED for lack of jurisdiction.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(3 of 3)

Case:-l:15-cv02556-JZ -Doc-#: 60 Filed:-02/25/19-Lof-4,-PagelD.#:.5920

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 1:15 CV 2556

Andrey Bridges,
Petitioner,
-vs-

MEMORANDUM OPINION
AND ORDER
JUDGE JACK ZOUHARY

Brigham Sloan,
Respondent.

Introduction
Petitioner pro se Andrey Bridges, a state prisoner, seeks a writ of habeas corpus under 28
U.S.C. § 2254 (Doc. 1). Under Local Civil Rule 72.2(b)(2), the Petition was referred to Magistrate
Judge William Baughman. Judge Baughman later issued a Report and Recommendation (R&R)
(Doc. 47), concluding that the Petition should be dismissed in part and denied in part. Bridges replied
(Doc. 59). Having reviewed the R&R and the Reply, this Court adopts the R&R in its entirety.
Procedural History
Because Bridges does not object to the procedural history set forth in the R&R (Doc. 47 at 436), this Court incorporates that history into this Order by reference and provides the following
summary.
In November 2013, following a trial in Ohio state court, a jury convicted Bridges of murder,
tampering with evidence, felonious assault, and offenses against a human corpse (Doc. 25-1 at 25).
Bridges unsuccessfully challenged his convictions through direct and collateral appeals in the Ohio
courts (Doc. 47 at 15-33). He is serving a sentence of eighteen years to life (id. at 3).

Case: l:15-cv-02556-JZ Doc#: 60 Filed: 02/25/19 2 of 4. PagelD#: 5921

Bridges filed his federal habeas Petition pro se in December 2015 (Doc. 1). Judge Baughman
appointed counsel to represent Bridges and clarify his Petition (Doc. 9).

But because of

“irreconcilable differences” between Bridges and his appointed counsel, Bridges chose to proceed
pro se (Docs. 19, 20).
Judge Baughman issued his R&R in August 2018 and warned Bridges that “[f]ailure to file
objections [to the R&R] . . . waives the right to appeal the District Court’s order” (Doc. 47 at 78).
This Court later extended the deadline for Bridges’ Reply to the R&R, granting him until late
September 2018 “to file any specific objections he has ...” (Doc. 55) (emphasis in original). Bridges
timely filed his Reply (Doc. 59).
Standard of Review
This Court reviews de novo any portions of an R&R to which a habeas petitioner objects. 28
U.S.C. § 636(b).

Such objections must, however, “specifically identify the portions of the

[R&R] ... to which objection is made and the basis for such objections.” Local Civil Rule 72.3(b)
(emphasis added). They “must be clear enough to enable the district court to discern those issues that
are ... contentious.” Miller v. Currie, 50 F.3d 373,380 (6th Cir. 1995). An unclear or merely general
objection to an R&R is effectively no objection at all. See id.; Howard v. Sec’y ofHealth and Human
Servs., 932 F.2d 505, 509 (6th Cir. 1991). “A district judge should not have to guess what arguments
an objecting party depends on when reviewing a magistrate’s report.” Howard, 932 F.2d at 509
(citation omitted).
Analysis
The Petition asserts thirteen grounds for relief (Doc. 1 at 15-24). This Court agrees with the
R&R’s observation that these grounds are “unfocused . . . [and] raise numerous sub-claims and
interrelated arguments” (Doc. 47 at 49) (internal quotation omitted). Nevertheless, the R&R met its
2

Case: l:15-cv-02556-JZ Doc#: 60 Filed: 02/25/19 3 of 4. PagelD#: 5922

obligation to liberally construe this pro se Petition. See Franklin v. Rose, 765 F.2d 82, 85 (6th Cir.
1985). Following a meticulous, 40-page analysis, the R&R concluded that Grounds 1, 2, and 3, and
parts of Ground 4, should be denied on the merits (Doc. 47 at 55, 71-72, 75-76); Grounds 5, 6, 7, 9,
and 11, and the remainder of Ground 4, should be dismissed as procedurally defaulted (id. at 57, 68);,i
and Grounds 8, 10, 12, and 13 should be dismissed as non-cognizable (id. at 69-71).
To the extent that the Reply asserts coherent arguments, it largely (1) restates the Petition’s
general contentions and (2) broadly asserts that the R&R reached unreasonable conclusions. Such
arguments are not specific objections that would require this Court to review the R&R de novo. See
Miller, 50 F.3d at 380.
This Court discerns only one specific objection in the Reply. Bridges objects to the R&R’s
determination that Ground 4(f) of his Petition is procedurally defaulted (Doc. 59 at 8). Ground 4(f)
claims ineffective assistance of appellate counsel. Specifically, Bridges asserts (1) that his trial was
constitutionally flawed due to the admission of supposedly false testimony regarding the weather on
the day of the crime and (2) that his appellate counsel was constitutionally ineffective for failing to
raise this argument (Doc. 1 at 16-19). The R&R concluded that Ground 4(f) is procedurally defaulted
because Bridges did not raise it in the Ohio courts (Doc. 47 at 57). In his Reply, Bridges points to
State v. Bridges, 2015 WL 9438519 (Ct. App. Ohio 2015), as “proof’ that he did raise Ground 4(f)
in state court (Doc. 59 at 8). But Bridges is incorrect. That state court decision demonstrates that he
asserted a claim of ineffective assistance of trial counsel, not of appellate counsel. Bridges, at U 9.
This Court therefore overrules this objection to the R&R.

This Court assumes that the R&R inclusion of Ground las a procedurally defaulted claim, at page
68, is a typographical error (see Doc. 47 at 55, 71-72).
3

Case: l:15-cv-02556-JZ Doc#: 60 Filed: 02/25/19 4 of 4. PagelD#:5923

Conclusion
This Court adopts the R&R (Doc. 47) in its entirety. The Petition (Doc. 1) is dismissed with
prejudice in part and denied in part. Additionally, Bridges has not made a substantial showing of the
denial of a constitutional right, so this Court declines to issue a certificate of appealability under 28
U.S.C. § 2253(c).
IT IS SO ORDERED.
s/ Jack Zouharv
JACK ZOUHARY
U. S. DISTRICT JUDGE
February 25, 2019

4

Case: l:15-cv-02556-JZ Doc#: 61 Filed!'02/25/19 -1-of l.-PagelD#:.5924_

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 1:15 CV 2556

Andrey Bridges,
Petitioner,

JUDGMENT ENTRY
JUDGE JACK ZOUHARY

-vsBrigham Sloan,
Respondent.

This Court adopts the Report and Recommendation (Doc. 47) in its entirety. The Petition
(Doc. 1) is therefore dismissed with prejudice in part and denied in part.
Petitioner has not made a substantial showing of the denial of a constitutional right, so this
Court declines to issue a certificate of appealability under 28 U.S.C. § 2253(c).
IT IS SO ORDERED.
s/ Jack Zouharv
JACK ZOUHARY
U. S. DISTRICT JUDGE
February 25, 2019

Case: l:15-cv-02556-JZ Doc#: 64 Filed: 07/12/19 1 of 1. Page ID #: 5949

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 1:15 CV 2556

Andrey Bridges,
Petitioner,

ORDER RE: RULE 60/bl MOTION

-vsJUDGE JACK ZOUHARY
Brigham Sloan,
Respondent.

In December 2015, Petitioner pro se Andrey Bridges filed a Petition seeking a writ of habeas
corpus (Doc. 1). This Court denied part of the Petition on the merits and dismissed the remainder on
procedural grounds (Doc. 60). An appeal of that decision is pending (Doc. 62). Bridges now asks
this Court to reopen the case under Federal Civil Rule 60(b) (Doc. 63). This Motion is denied.
Because of the pending appeal, this Court lacks jurisdiction over his Rule 60(b) Motion. See
Post v. Bradshaw, 422 F.3d 419, 421 (6th Cir. 2005). In any event, Bridges fails to identify a reason
justifying Rule 60(b) relief. See First Nat’l Bank of Salem v. Hirsch, 535 F.2d 343, 346 (6th Cir.
1976) (per curiam).
Additionally, this Court notes that the appeal of the earlier Order (Doc. 62) is not taken in
good faith. See 28 U.S.C. § 1915(a)(3).
IT IS SO ORDERED.
s/ Jack Zouharv
JACK ZOUHARY
U. S. DISTRICT JUDGE
July 12,2019

Case: 1: 15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 1 of 78. PagelD#:5626

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

ANDRE YBRIDGES,

)

CASE NO. 1:15 CV 2556

)

Petitioner,

)

JUDGE JACK ZOUHARY

)

) MAGISTRATE JUDGE
) WILLIAM H, BAUGHMAN, JR.

v.
BRIGHAM SLOAN,
Respondent.

)
)

)

REPORT & RECOMMENDATION

Table of Contents

Introduction

-3.

Facts
A.
B.
C.
D.
E.

F.
G.

-4-4-15-15-16-17-17-18-

Underlying facts, conviction, and sentence ..
Delayed Direct Appeal................................
1.
Ohio Court of Appeals......................
2.
The Supreme Court of Ohio.............
Ohio App. R. 26 application to reopen appeal
1.
Ohio Court of Appeals.....................
2.
The Supreme Court of Ohio.............
-20Petition for post-conviction relief...............
-211.
Ohio Court of Appeals.....................
Successive post-conviction petition, Crim. R. 33 motion for new trial, and
-22consolidated appeal......................................
-221.
Successive post-conviction petition ...
-232.
Findings of fact and conclusions of law
-24Ohio Court of Appeals ...........
a.
-253.
Crim. R. 33 motion for a new trial ....
-25a.
Ohio Court of Appeals ...........
-264.
Consolidated appeal..........................
-26Ohio Court of Appeals ...........
a.
-27b.
The Supreme Court of Ohio ...
-29Delayed motion for a new trial .....................
-30Motion to vacate judgment ..........................

I

i

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 2 of 78. PagelD#: 5627

H.

I.
Analysis
A.
B.

C.

-311.
Ohio Court of Appeals ...
-332.
The Supreme Court of Ohio
Motion for leave with memorandum in support to “correct err 2903.02(A)
-33conviction”...........................
-331.
Ohio Court of Appeals ..
-34Petition for writ of habeas corpus
Preliminary observations
Applicable law.............
1.
AEDPA review ..
“Contrary to” or “unreasonable application of’ clearly
a.
established federal law ............................ ..............
“Unreasonable determination” of the facts...............
b.
2.
Procedural default...................................
3.
Noncognizable claims..............................
4.
Ineffective assistance of appellate counsel,
Recommendation on grounds asserted ...............
1.
Procedural default....................................
Ground One............................
a.
Ground Four ...........................
b.
Grounds Five, Six, Seven, and Nine
c.
Ground Eleven............................
d.
Actual innocence.................
e.
Non-cognizable
claims..........................
2.
Grounds Eight and Twelve .........
a.
.
b.
Ground Ten................................
Ground Thirteen .........................
c.
Merits review .......................
3.
Ground One...............
a.
b.
Grounds Two and Three
Ground 4(a)(1), 4(a)(6),4(a)(7), 4(a)(8), 4(c), and 4(d)..
c.
d.
Ground Four 4(a)(2) - 4(a)(5)

-37-37-

-38-38-

-39-41-42-45-47-

-49-50-50-55-58-

-59-66-69-69-70-70-

-71-71-72-

-15^
-76-77-

Conclusion

-2-

!

Casefl:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 3 of 78. PagelD#:5628

Introduction
Before me1 is the petition of Andrey Bridges for a writ of habeas corpus under
28 U.S.C. § 2254.2 Bridges was convicted by a Cuyahoga County Court of Common
Pleas jury in 2013 of murder, tampering with evidence, felonious assault, and abuse of a
corpse3 and is serving 18 years to life. He is currently incarcerated at the Lake Erie
Correctional Institution in Conneaut, Ohio.4
In his petition, Bridges raises thirteen grounds for habeas relief.5 The State has
filed a return of the writ arguing that the petition should be denied or dismissed because
the counts are either without merit, procedurally defaulted, or non-cognizable.6 Bridges
has filed a traverse.7
For the reasons that follow, I recommend Bridges’s petition be dismissed in part
and denied in part.

1 This matter was referred to me under Local Rule 72.2 by United States District Judge
Jack Zouhary by non-document order dated December 28, 2015.
2 ECF No. 1.
3 ECF No. 25, Attachment 1 at 16.
4 http://www.drc.state.oh.us/OffenderSearch
5 ECF No. 1.
6 ECF No. 25.
7 ECF No. 33.
-3-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 4 of 78. PagelD#:5629

Facts
A.

Underlying facts, conviction, and sentence
The facts that follow come from the decision of the appeals court. $
In May 2013, Bridges was indicted on six counts: aggravated murder; murder;

felonious assault; kidnapping; tampering with evidence; and abuse of a corpse.9 He
pleaded not guilty to all the charges, and the case proceeded to a trial by jury.10

!
i
I

In April of 2013, the body of Carl Acoff, Jr.,, was found in a pond located behind
an apartment located at 7168 McKenzie Road in Olmsted Township.11 Jeffrey Bland,
who lived in the apartment, noticed something floating in the pond the day before the

I

body was found.12 He testified that it looked like clothing, but the next day the object was
closer to shore and the object then looked like a mannequin because he could see legs.13
Bland called his supervisor, Paul Schmidt, to come over and look at it.14 After Schmidt

Facts found by the state appellate court on its review of the record are presumed
correct by the federal habeas court. 28U.S.C. § 2254(e)( 1); Mason v. Mitchell, 320 F.3d 604,
614 (6th Cir. 2003) (citing Sumner v. Mata, 449 U.S. 539, 546-47 (1981)).

I!

8

9 ECF No. 25, Attachment 1 at 88.
10 Id
11 Id.
12 Id.
13 Id. at 89.
14 Id.
-4-

I

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 5 of 78. PagelD#^5630

I

arrived, Bland threw a stick at the object, causing oils to come out of the crotch area.15 At

i
I

that point, Bland and Schmidt called the police.16

i

Bland had been living at the apartment since January or February 2013, but the
apartment was actually leased by Jason Quinones.17 Although Quinones kept all his
furniture and belongings at the apartment, he lived with his girlfriend, Irene, in Columbia
Station.18
Police and special dive teams recovered Acoff s body from the pond.19 Acoff s
body had two black and orange ropes tied around it.20 One rope had a metal pipe
attached and the other had a rock or a “cinder block” tied to it.21
Dr. Andrea Wiens, an expert in forensic pathology, performed the autopsy on
Acoff s body.22 Dr. Wiens testified that Acoff s body could have been placed in the pond
anytime between December 2012 and March 2013.23 The cause of death was homicidal

15 Id
16 Id
\

17 Id
"Id
]9Id.
20 Id at 89-90.
21 Id at 90.
22 Id
23 Id
-5-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 6 of 78. PagelD#: 5631

violence with hyoid fracture and multiple sharp force injuries of skin, soft tissues, and
viscera.24
When Acoff s body was pulled from the pond, he was not wearing clothing from
his waist down25 He was wearing a black jacket, a pink tank top, and three bras; one of
them had “stuffing” inside of it.26 Relatives testified that they were aware that Acoff was
dressing feminine and that he was prostituting himself on a social website called

I

{

Photobucket27
The day after the discovery of Acoff s body, police found a piece of mail on the

i

ground near the mailbox of 7168 McKenzie Road.28 The mail was from MetroHealth and
addresses to Bridges at that address.29 Police obtained a warrant to open the mail; it was a

!

I

bill from MetroHealth for treatment Bridges had received at the hospital on January 6,
I!:

2013.30

\

24 Id.

i

25 Id. at 91.
26 Id.
27 Id.
2% Id.
29 Id
30 Id. at 92.
-6-

Case: l:15-cv-02556-JZ Doc#:47 Filed: 08/09/18 7 of 78. PagelD#:5632

During the investigation, neighbors stated that a taxi cab had “come and gone” to
the apartment.31 Police contacted cab companies in the Cleveland area to determine if
any had been dispatched to McKenzie Road.32 Timothy Lewis, general manager of Ace
Taxi Service, found through Ace’s GPS tracking system that one of Ace’s cabs had been
to McKenzie Road twice the morning of January 5, 2013.33 He was also able to recover
the telephone request information.34 Ace had a call requesting service from Acoff s
home address of 911 Rondell Road in Cleveland, Ohio, and they were looking to be
delivered to 7168 McKenzie Road in Olmstead Township.35 The request came from
Bridges’s cell phone.36
Based on the GPS tracking system, Lewis determined that the Ace taxi arrived at
7168 McKenzie Road at 9:20 a.m. the morning of January 5, 2013, and then drove to a
location nearby on Cook Road, stayed for no more than a couple of minutes, and was
back at the destination about ten minutes later.37

31 Id.
32 Id.
33 Id
34 Id
35 Id.
36 Id
31 Id at 93.
-7-

r Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 8 of 78. PagelD#:5633

Lewis identified the three calls made from the Bridges’s phone on the morning of
January 5, 2013, which were played in court.38 The first call requested service from 911
Rondel Avenue to 716 8 McKenzie Road, for one passenger named “Shea.” In the second
call, the caller wanted to know when the taxi would arrive at 911 Rondel Avenue.39 In
the third call, made after the taxi arrived at 7168 McKenzie Road, the caller wanted to
know again what the fare was from Rondel Avenue to McKenzie Road.40
The taxi driver, Abdifatah Mohamoud, testified that he picked up one person on
Rondell Avenue on January 5,2013; he was not sure if the person was a man or a
woman.41 He testified that when he arrived at the McKenzie Road address, he picked up
a man and took the two of them to a convenience store to get change and then the man
who had been waiting at the McKenzie Road address paid the fare with cash.42
Mohammad positively identified Acoff (dressed as a woman) from a photo array as
the person he picked up from Rondell Avenue.43 He also identified Bridges from a photo
array as the man who paid for the cab fare.44

38 Id
”Id
40 Id
41 Id
42 Id. at 93-94.
43 Id. at 94.
44 Id
-8-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 9 of 78. PagelD #: 5634

Jason Quinones testified that Bridges moved into his apartment on McKenzie
Avenue in July of 2012.45 Since Quinones was at his girlfriend’s residence all the time,
he allowed Bridges to live at the McKenzie Avenue apartment and made him pay the
electric and gas bills, but not rent.46 He confirmed that Bridges lived in the apartment
until January 2013.47 Quinones said that he would still go to his apartment to get his mail,
pay bills, and check on his dog, but he was mostly at Irene’s. 48
After learning that a body had been found in the pond behind his apartment,
Quinones went to the police and told them that he might know something about the
murder 49
Quinones stated that on January 5, 2013, he stopped by his apartment with a friend,
Bill King, to get money from Bridges for the gas and electric bills.S0 When Quinones
pulled into the driveway, Bridges was standing in the front yard, right next to the
driveway, with a fire going in Quinones’s “fire ring.”51 Quinones wondered what Bridges
was doing standing outside in the “freezing cold with a T-shirt and a fire going. He

45 Id.
46 Id
47 Id
4*Id.
49 Id
50 Id at 95.
51 Id
-9-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 10 of 78. PagelD#:5635

stated that he could see that Bridges was burning carpet padding and “a little bit of jean
material. >>52
Quinones said that Bridges “eyes looked crazy,” and his hand was “gushing blood
everywhere.”53 Quinones identified a cell phone photo taken by King in that morning of
Bridges standing by the fire ring in his T-shirt.54
Quinones tried to go in his apartment, but Bridges didn’t want him inside telling
him that “something had happened, and he would take care of it.”55 Bridges asked
Quinones to leave, but he went inside the apartment anyway.56 Quinones testified that
blood was “all the way up the steps,” and that the door had been kicked in.57 Quinones

!

saw a “heater type thing” that had blood all over it.58 The table was flipped and there was

I

blood all over the kitchen floor and counters.59
!

52 Id.
53 Id.
54 Id.
55 Id. at 96.
56 Id.
51 Id
5*Id.
59 Id.
-10-

Case: lTT5rcv:02556-JZ Doc#: 47 Filed: 08/09/18 11 of 78. PagelD#:5636

Quinones asked Bridges what happened and Bridges gave him “three different
answers real fast, 5560 Quinones stated that he was so mad at that point that he told Bridges
to clean up the mess and move out of the apartment.61
Quinones noticed that day that one of his rugs was missing, and later learned that a
bunch of stuff was missing from his apartment including his bed (including the comforter,
sheets, pillow, and pillow cases), decorative towels from his bathroom, rugs, a heater, and
a door stop to keep the cold air out.62
Before Quinones left, Bridges pulled a couple hundred dollar bills saturated with
blood out of his pocket and paid the money that he owed him.63
Quinones went over to his apartment the day after because he knew that Bridges
had left and he thought it had been “a little fishy because of what [he] had walked into.

«64

Quinones said that there was snow on the ground and that he saw blood drops and
footprints on a trail to the pond.65 He believed that the footprints and blood was from
Bridges.66 Bridges later told Quinones on the phone that “somebody must have killed a

60 Id.
61 Id.
62 Id at 96-97.
63 Id. at 97.
**Id. at 97-98.
65 Id. at 98.
66 Id.
-11-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 12 of 78. PagelD#:5637

deer in the backyard because there was blood everywhere.”67 Quinones never called the
police because he did not think that it was as serious “as it ended up being.” Bridges
even told Quinones that he was arrested for felonious assault in connection with the
incident. 68
Christine Ross, a senior computer analyst for the State of Ohio Bureau of Criminal
Investigations testified that Olmsted Falls Police contacted her to analyze twelve cell
phone numbers associated with the following individuals: Carl Acoff; Andrey Bridges,
Anthony Miller; Jason Quinones; and Jeffrey Bland.69
Ross found that several calls were made between Acoff and Bridges on January 5,
2013.70 None of the other persons had contact with Acoff during that time.71 The last call
made or received from Acoff s cell phone was on January 5, 2013, a call that Acoff made
to a “440 number” at 12:20 p.m. and it lasted for five seconds.72
Ross also testified that Bridges’s cell phone was in the same tower location as
Acoff during the relevant time frame73

67 Id.
68 Id.
69 Id. at 101.
70 Id.
nId. at 102.
72 Id.
13 Id.
-12-

|

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 13 of 78. PagelD#: 5638

When the police interviewed Bridges, he originally implicated Quinones and
King.74 He told police that it was Quinones and King who wanted the prostitute and gave
him the money to pay for the taxicab.75 He further stated that he saw King with the knife,
but did not see anything else.76 Bridges stated that he cut his finger when he was making
dinner for his girlfriend.77 But, he later retracted his statement, although it was true,
because he feared for the safety of his children and family.78
The evidence that was collected at the scene was processed by trace evidence and
DNA experts working in the Cuyahoga County medical examiner’s office.79 These
experts testified that the rope that was found on the body matched the rope found in the
garage. 80 These experts also determined that most of the blood samples taken in the
garage, the apartment, and stairwell leading to the apartment all matched Bridge s DNA.
The blood sample from the portable heater found in the bedroom of the apartment
had major and minor DNA components. The major component matched that of the

74 Id at 103.
75 Id
76 Id
77 Id
nId.
79 Id.
80 Id.
81 Id at 103-04.
-13-

6

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 14 of 78. PagelD#:5639

victim. The minor component was inconclusive because there was not enough DNA to
determine whose it was.82 Quinones, King, and Bland were excluded from all DNA tests;
none of the items matched their DNA.83
At the close of the state’s case, Bridges moved for a Crim. R. 29 acquittal. The
trial court granted his motion as to the kidnapping count, but denied it as to the remaining
counts. 84
The jury found Bridges not guilty of aggravated murder, but guilty of the lesserincluded offense of murder, murder, felonious assault, tampering with evidence, and
abuse of a corpse.85
The trial court merged the murder and felonious assault counts.86 The state elected
to proceed on the lesser-included offense of murder.87 The trial court sentenced Bridges
to a total of eighteen years and six months to life in prison: fifteen years to life for
murder; thirty months for tampering with evidence; and twelve months for abuse of a
88
corpse. These sentences were all to be served consecutive to one another.

82 Id. at 104.
83 Id.
84 Id.
S5Id.
*6Id
87 Id.
88

Id. at 104-05.
-14-

s8

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 15 of 78. PagelD#: 5640

B.

Delayed Direct Appeal

1.

Ohio Court ofAppeals
Bridges, through counsel, filed an untimely89 notice of appeal90 with the Ohio

Court of Appeals. Bridges then filed a motion for leave to file a delayed appeal91 which
the court granted.92 In his brief, Bridges filed three assignments of error:
1.

“The convictions of murder and felonious assault are against the
weight of the evidence.”

2.

“The evidence is insufficient to sustain a conviction of Tampering
With Evidence in violation of R.C. § 2921.12(A).”

3.

“The evidence is insufficient to sustain a conviction of Offenses
Against a Human Corps[e] in violation of R.C. § 2927.01(B). »93

The state filed a brief in response.94 The Ohio appeals court overruled all three
assignments of error and affirmed the decision of the trial court.95

89

Under Ohio App. Rule 4(A), to be timely, a party must file a notice of appeal
within 30 days of the judgment being appealed. See Smith v. Konteh, No. 3:04CV7456,2007
WL 171978, at *2 (N.D. Ohio Jan. 18, 2007) (unreported case). Bridges’s conviction and
sentence were journalized on November 15,2013 (ECF No. 25, Attachment 1 at 16), and the
notice of appeal was filed on December 23, 2013. Id. at 18.
90 Id. at 16.
91 Id. at 27.
92 Id. at 34.
93 Id. at 40.
94 Mat 70.
95 Id. at 86.
-15-

!

"Case: l:I5-cv-02556-JZ Doc #: 47 Filed: 08/09/18 16 of 78. PagelD #: 5641

i
i

i

!
i

S

2.

I

The Supreme Court of Ohio
Bridges, pro se, thereupon filed a timely96 notice of appeal with the Ohio Supreme

Court.97 In his brief in support of jurisdiction, he raised three propositions of law:
1.

The trial court erred by entering a judgment of conviction of murder
and felonious assault are against the manifest weight and sufficiency
of the evidence, in derogation of Defendant’s right to due process of
law, as protected by the Fourteenth Amendment to the United States
Constitution and Article I, Section 16 of the Ohio Constitution.

2.

The appellant was deprived his right to a fair trial and due process
under the Sixth and Fourteenth Amendments to the United States
Constitution and Article I, Section 16 of the Ohio Constitution when
he was convicted of Tampering with Evidence pursuant to O.R.C.
§2921.12.

3.

The appellant was deprived of Due Process Clause of the Fourteenth
Amendment to the United States Constitution and Section 16, Article
I of the Ohio Constitution when he was convicted of Offenses
Against a Human Corps pursuant to O.R.C. §2927.01(B). 98

The State filed a waiver of memorandum in response.99 On April 8, 2014, The
Ohio Supreme Court declined to accept jurisdiction of the appeal under S.Ct.Prac.R.

96 See Ohio S. Ct. Prac. R. 7.01(A)(5)(b) (To be timely, a notice of appeal must be
filed within 45 days of entry of the appellate judgment for which review is sought.);
Applegarth v. Warden, 377 F. App’x 448, 450 (6th Cir. 2010) (discussing forty-five day
limit) (unreported case). The Court of Appeals decision was filed on October 16,2014 and
Bridges appeal to the Ohio Supreme Court was filed on December 1, 2014. Id. at 117.
97 Id.
wId at 120.
99 Id. at 168.
-16-

!

Casef l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 17 of 78. PagelD #: 5642

7.08(B)(4).100 Bridges then filed a motion for reconsideration of the Ohio Supreme
Court’s ruling declining to accept jurisdiction101 which the Court denied.102 The record
does not reflect that Bridges appealed to the United States Supreme Court.
C.

Ohio App. R. 26 application to reopen appeal

1.

Ohio Court of Appeals
On October 30,2014, Bridges,pro se, filed an App. R. 26(B) application to reopen

his appeal with the Ohio Court of Appeals.103 In his brief, Bridges raised four assignments
of error:
1.

“Appellant was denied effective assistance of counsel as guaranteed
by the Sixth and Fourteenth Amendments to the United States
Constitution and Article I, Section 10 of the Ohio Constitution where
his appellate counsel omitted a dead bang winner, prejudicing
appellant to receiving a full review by the court. »104

2.

“The trial court committed reversible error when it allowed the
media the right to publish information regarding the case. The trial
court violated the appellant’s right to due process and a fair trial
under the Fifth and Fourteenth Amendments of the United States
Constitution, Article One, Section Ten and Sixteen of the Ohio
Constitution. !»105
:

100

Id. at 169.

101

Id. at 170

102

Id. at 176.

103

Id. at 177.

104

Id. at 180.

105

Id at 181.
-17-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 18 of 78. PagelD#: 5643

i

i
3.

“The appellant was deprived of his right to effective assistance of
counsel as provided pursuant to the Fourteenth and Sixteenth
Amendments to the United States Constitution.”106

4.

“The trial court erred when it allowed highly prejudicial evidence to
be amitted [sic] at trial without having an evidentiary hearing,
violating appellate’s [sic] due process rights guaranteed under the
Fourteenth Amendment to the United States Constitution and Article
One, Section 10 of the Ohio Constitution. „107

The State filed a memorandum in opposition,108 to which Bridges filed a reply.

109

On April 14, 2015, the Ohio Court of Appeals denied Bridges App. R. 26(B)
application. no
Z

The Supreme Court of Ohio
Bridges, pro se, filed a timely111 notice of appeal112 to the Supreme Court of Ohio.

In his memorandum in support, Bridges raised the following four propositions of law:
1.

“The appellant was deprived due process and the effective assistance
of appellate counsel as guaranteed under the Sixth and Fourteenth
Amendments to the United States Constitution and Article 1 Section

106

Id. at 182.

107

Id. at 229.

108

Id. at 328.

109

Id. at 338.

no Id. at 359.

111 The Ohio Court ofAppeals denied Bridges’s App.R.26(B) application on April 14,
2015. Bridges filed his notice of appeal with the Ohio Supreme Court on May 15, 2015;
thus, it is timely.
112 Id. at 370.
-18-

“Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 19 of 78. PagelD #: 5644

i

10 and 16 of the Ohio Constitution for failing to raise a dead bang
winner, prejudicing the appellant to receiving Full and Fair review
on direct appeal. 5*113
2.

“The appellant was deprived the effective assistance of counsel as
guaranteed to the Sixth Amendment to the United States
Constitution. 5*114

3.

“Appellant argues that he was deprived of the right to an impartial
jury because of the pretrial publicity in this case. A violation of his
right to due process as guaranteed by the Fourteenth Amendment to
the United States Constitution and Article 1, Section 16, of the Ohio
Constitution. 5*115

4.

“The appellant was deprived the effective assistance of counsel as
guaranteed by the Sixth Amendment to the United States
Constitution when Appellant counsel failed to object to the
55116
admission of highly prejudicial evidence pursuant Evd.R.403.

The State did not file a brief in opposition. The Supreme Court of Ohio declined
to accept of the appeal under S. Ct. Prac. R. 7.08(B)(4).117 The record does not indicate if
Bridges appealed to the United States Supreme Court.
On July 28, 2015, Bridges filed a motion for immediate stay pending completion
of his actual innocence claims on appeal with the Ohio Court of Appeals.118 On July 29,

113 ECF No. 25, Attachment 2 at 382.
114 Id. at 385.
U5 Id. at 386.
116

Id. at 388.

1,7 Id. at 403.
118 Id. at 404.
-19-

!

Case:l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 20 of 78. PagelD#:5645

2015, Bridges also filed a motion for reconsideration with the Supreme Court of Ohio’s
decision dismissing his appeal.119 The Supreme Court of Ohio denied the motion for
reconsideration and motion for immediate stay. 120
D.

Petition for post-conviction relief
On July 23, 2014, Bridges,pro se, filed a petition for post-conviction relief.121 In

his petition, Bridges raises the following four claims for relief:
1.

“Petitioner was deprived of his right to substantive due process as
guaranteed by the Sixth and Fourteenth Amendments to the United
States Constitution and Article 1, Sections 1, 9,10, and 16 if the Ohio
Constitution, where his jury trial was devoid of any testimony from
the witness identifying petitioner as the perpetrator. 55122

2.

“Petitioner was deprived of the effective assistance of counsel as
guaranteed by the Sixth and Fourteenth Amendments to the United
States Constitution and Article I, Section 10 of the Ohio
Constitution. 55123

3.

“Petitioner was deprived of his right to substantial due process and
equal protection of law as guaranteed by the Fourth, Fifth, and
Fourteenth Amendments to the United States Constitution and
Article I, Sections 10 and 16 of the Ohio Constitution, when tainted
evidence was placed before the jury in bad faith by the State, in order
to obtain an illegal conviction against Petitioner, someone the State

119 Id. at 431.
120

Id. at 439.

121 Id. at 440.
122 Id. at 441.
123 Id. at 442.
-20-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 21 of 78. PagelD#:5646

knew or should have known was actually innocent under the defense
of mere presence. »124
4.

“Petitioner was deprived of his right to a fair trial as guaranteed by
the Sixth and Fourteenth Amendments to the United States
Constitution and Article I, Sections 1, 10 and 16 of the Ohio
Constitution, due to prosecutorial misconduct. »125

The trial court denied Bridges’s petition for post-conviction relief.126 Bridges,pro
se, then filed a request for findings of fact and conclusions of law.127 The trial court, in
its findings of fact and conclusions of law, found that Bridges failed to establish
substantive grounds for relief and denied the petition. 128
L

Oh io Co urt ofAppeals
Bridges, pro se, filed a timely129 notice of appeal130 with the Ohio Court of

Appeals. The Court, sua sponte, dismissed the appeal for failure to file the record.131

124 Id. at 443-44 (emphasis in original).
125 Id. at 444.
126

Id. at 466.

127 Id. at 467.
128

Id. at 471.

129

The trial court issued its findings of fact and conclusions of law on September 8,
2014 and Bridges filed his notice of appeal on September 16,2014; thus, it is timely.
130

Id. at 480.

131 Id. at 510.
-21-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 22 of 78. PagelD #: 5647
I

j
Bridges, pro se, filed a timely132 second notice of appeal133 with the Ohio Court of
Appeals. The Court dismissed Bridges’s appeal for failure to file the record.134 The

1

!

record does not indicate that Bridges filed an appeal with the Ohio Supreme Court.
E.

Successive post-conviction petition, Crim. R. 33 motion for new trial, and
consolidated appeal

1.

Successive post-conviction petition
Bridges, pro se, filed a second petition to vacate or set aside judgment of

conviction or sentence.135 In his petition, Bridges raised the following four claims for
relief:
1.

“The petitioner was denied the effective assistance counsel [sic]
guaranteed by the Sixth Amendment to the United States
Constitution and Article 1, Section 10 of the Ohio Constitution. 55136

2.

“The petitioner’s [sic] was deprived of his Fourteenth Amendment
right to due process under the United States Constitution and Article
1, Section 16 of the Ohio Constitution when the trial court lack [sic]
subject matter jurisdiction of his case. (See exhibits F, J, L, M,
N). 55137

132 The trial court issued its findings of fact and conclusions of law on September 8,
2014, and Bridges filed his second notice of appeal on September 17,2014.
133 ECF No. 25, Attachment 2 at 512.
134 Id. at 551.
135 Id. at 552.
136

ECF No. 25, Attachment 3 at 555.

137 Id. at 573.
-22-

!

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 23 of 78. PagelD#:5648
s
3.

“The petitioner asserts that he was denied a speedy trial pursuant to
R.C. 2945.71 in violation of of [sic] the Sixth and Fourteenth
Amendments to the United States Constitution and Article 1, Section
10 of the Ohio Constitution. 55138

4.

“Petitioner was denied a fair trial, due to both witness misconduct
and prosecution misconduct during closing arguments in violation of
his Sixth and Fourteenth Amendment under the United States
Constitution (right to a fair trial and due process) and Article 1,
Secti on 16 of the Ohio Constitution. 55139

The trial court denied Bridges’s petition on March 24,2015. 140
2.

Findings offact and conclusions of law
Bridges filed a request for findings of fact and conclusions of law141 which the trial

court denied. 142 Bridges then filed a motion for leave to appeal143 in the Ohio Court of
Appeals which the trial court also denied.144

138Id. at 581.
139 Id. at 584.
140

Id. at 789.

141 Id at 790.
142 Id at 793.
143 Id at 794.
144

Id. at 796.
-23-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 24 of 78. PagelD #: 5649

a.

Ohio Court ofAppeals
Bridges, pro se, filed a timely145 notice of appeal145 to the Ohio Court of Appeals.

In his brief, Bridges raised the following four assignments of error:
1.

“The Appellant was denied effective assistance counsel [sic]
guaranteed by the Sixth Amendment to the United States
Constitution and Article I, Section 10 of the Ohio Constitution.

2.

“The Appellant was deprived his Fourteenth Amendment right to
due process under the United States Constitution and Article I,
Section 16 of the Ohio Constitution when the trial court lack [sic]
subject matter jurisdiction of his case.”

3.

“The Appellant asserts that he was denied a speedy trial pursuant to
R.C. 2945.71 in violation of the Sixth and Fourteenth Amendments
to the United States Constitution and Article I, Section 10 of the
Ohio Constitution.”

4.

“The Appellant was denied a fair trial, due to both witness
misconduct and prosecution misconduct during closing arguments in
violation of his Sixth and Fourteenth Amendment under the United
States Constitution (right to a fair trial and due process) and article I,
Section 16 of the Ohio Constitution. 5)147

145 The trial court denied Bridge’s successive post-conviction petition on March 24,
2015. Bridges filed his Notice of Appeal on April 22, 2015.
146

Id. at 797.

147 Id. at 809.
-24-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 25 of 78. PagelD#:5650

The State filed a brief in response,148 to which Bridges filed a reply.149 Bridges
then filed a motion to consolidate the appeal of his post-conviction petition with another
appeal he had pending relating to the denied motion for a new trial.150 The court granted
the motion and consolidated the appeals.151
3.

Crim. R. 33 motion for a new trial
Bridges, pro se, filed an untimely motion for a new trial.152 On May 18, 2015, the

trial court denied the motion.153
a.

Ohio Court ofAppeals
Bridges, pro se, filed a timely154 notice of appeal to the Ohio Court of Appeals.

In his brief, Bridges raised the following assignments of error:
1.

“The trial court abused its discretion when it denied the motion for a
new trial based on newly discovered evidence. 93156

148

Id. at 851.

149

Id. at 865.

150

ECF No. 25, Attachment 4 at 922.

151 Id. at 929.
152 Id. at 930.
153 Id. at 959.
154 The trial court denied Bridge’s motion for a new trial on May 18,2015. Bridges
filed his notice of appeal on June 2,2015; thus, it is timely.
155 Id. at 960.
156

Id. at 978.
-25-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 26 of 78. PagelD#:5651

I

i

Ii
2.

“Whether the trial court abused its discretion when it denied the
appellant when admitting highly inflammatory and gruesome photo.
And whether The [sic] probative value of the photo was far
outweighed by the danger of unfair prejudice, Evid.R. 403(a), and
this denied appellant a fair trial as guaranteed by the Fifth, Sixth, and
Fourteenth Amendments to the United States Constitution and
)>157
Sections 10 and 16, Article 1 of the Ohio Constitution.

3.

“Whether the Trial Court abused its discretion when it denied the
motion for a new trial. Where the new trial was based on a violation
to the appellant Eighth amendment [sic]. „158

This appeal was consolidated with Bridges’s appeal related to his post-conviction
petition. 159
4.

Consolidated appeal

a.

Ohio Court ofAppeals
After the consolidation of his actions, Bridges filed a motion for leave to amend

his brief. 160 The court denied the motion161 and the State filed its brief.162 Bridges then
filed a motion to dismiss his merit brief.163 The appellate court denied the motion and
informed Bridges that the case would go to the merit panel unless he dismissed the entire

157 Id. at 993.
158 Id. at 996.
159

Id. at 929.

160

Id. at 1005.

161 Id. at 1007
162

Id. at 1008.

163 Id. at 1022.
-26-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 27 of 78. PagelD#:5652

appeal.164 Bridges then filed a motion for immediate stay for appeal165 which the court
denied. 166 The Ohio appeals court overruled Bridges’s assignments of error and affirmed
the decision of the trial court. 167
b.

The Supreme Court of Ohio
Bridges, pro se, filed a timely168 notice of appeal169 to the Supreme Court of Ohio.

In his memorandum in support, Bridges asserts the following propositions of law:
1.

“The Appellant was denied the effective assistance counsel [sic]
guaranteed by the Sixth Amendment to the United States
Constitution and Article I, Section 10 of the Ohio Constitution.

2.

“The Appellant was deprived of his Fourteenth Amendment right to
due process under the United States Constitution and Article I,
Section 16 of the Ohio Constitution when the trial court lack [sic]
subject matter jurisdiction of his case.”

3.

“The Appellant argues that he was denied a speedy trial pursuant to
R.C. 2945.71 in violation of the Sixth and Fourteenth Amendment
under the United States Constitution. And Article, Section 10 of the
Ohio Constitution.”

164 Id. at 1034.
165 Id. at 1035.
166

Mat 1109.

167

Id. at 1110.

See Ohio S. Ct. Prac. R. 7.01(A)(5)(b) (To be timely, a notice of appeal must be
filed within 45 days of entry of the appellate judgment for which review is sought.);
Applegarth v. Warden, 377 F. App’x 448, 450 (6th Cir. 2010) (discussing forty-five day
limit) (unreported case).
168

169

Id. at 1124.
-27-

I

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 28 of 78. PagelD#:5653

4.

“The Appellant was denied a fair trial, due to both witness
misconduct and prosecution misconduct during closing arguments in
violation of his Sixth and Fourteenth Amendment under the United
States Constitution (right to a fair trial and due process) and Article
I, Section 16 of the Ohio Constitution.”

5.

“THE 8th DISTRICT Court abused its discretion when it denied the
Appeal for the new trial based on newly discovered evidence. (VIA)
Fundamental miscarriage of Justice (VIA) Ineffective Assistance of
counsel.”

6.

“THE 8th DISTRICT Court violated Appellants substantial
Constitutional right in it’s [sic] ruling when palpable defects drowns
it’s judgements [sic] of Res-Judicata the reasons Why Appellants
Appeal And issues was denied [sic].”

7.

“THE 8th DISTRICT Court ruled unfairly when it denied the
appellant when admitted a highly inflammatory and gruesome photo.
Fundamentally, The probative value of the photo was far outweighed
by the danger of unfair prejudice, Evid. R. 403(a), and this denied
appellant a fair trial as guaranteed by the Fifth, Sixth and Fourteenth
Amendments to the United States Constitution and Sections 10 and
16, Article 1, of the Ohio Constitution.”

8.

“THE 8th DISTRICT Court Ruled unfairly when it denied the Appeal
for a new trial. Where the new trial was based on a violation to the
appellant Eighth amendment, [sic] 55170

The Supreme Court of Ohio declined to accept jurisdiction of the appeal pursuant
to S. Ct. Prac. R. 7.08(B)(4).171 Bridges then filed a motion for reconsideration172 which

170

Id at 1129.

171 Id at 1158.
mId at 1159.
-28-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 29 of 78. PagelD#:5654

the court denied.173 The record does not reflect that Bridges appealed to the Unites States
Supreme Court.
F.

Delayed motion for a new trial
Bridges, pro se, filed a motion in the trial Court for leave to file a delayed motion

for a new trial.174 He then filed a delayed motion for new trial instanter with memorandum
in support.175 In his memorandum in support, Bridges raised the following claims:
1.

“The defendant right to have effective assistance of counsel via U.S.
v. Cronic At (675 F.2d 1126) during trial was violated, causing a
violation to the Defendant 6 Amendment and 14 amendment to the
Ohio Constitution and al his U.S. Constitutional rights, [sic]

2.

“Defendant was prejudiced when the defendant Actual/Factual
innocence was on the face of the record. (Pursuant to but not limited
to) Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781, 61 L.Ed.
2D 560 (1997); and (Quoting) State v. Byrd, 145 Ohio App.3d 318,
330-331, 762 N.E.2d 1043 (1st Dist 2001); VIA a manifestation of a
substantive violation to all the defendants constitutional rights, VIA
Case Law of Strickland v. Washington (1984), 466 U.S. 668,205 S.
Ct. 2025, 80 L.Ed 2d 674. And Case Law State v. Ayala (1996), 111
Ohio App.3d 627, 631, 676N.E.2d 1201. [sic]”177

3.

“The trial court erred when it denied the defendant’s Motion for
Appointment of Private Investigator, thus depriving him of his right
to a fair trial and due process guaranteed under the Sixth and

173 Id. at 1164.
mId. at 1165.
17S ECF No. 25, Attachment 5 at 1172.
176 Id. at 1361.
177 Id. at 1365.
-29-

_____ Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 30 of 78. PagelD#:-5655

Fourteenth Amendment to the United States Constitution, Article I,
Section 10 and 16 of the Ohio Constitution. >>178
The State filed a brief in opposition.179 Bridges filed for leave to supplement his
motion. 180 The trial court denied Bridges motion for leave to file delayed motion for a
new trial. 181 Bridges then filed an emergency reply to the State’s brief in opposition to the
defendant’s motion for leave to file motion for new trial. 182 Bridges also filed a motion
for reconsideration.183 The trial court denied Bridges’s motion for reconsideration.
G.

184

Motion to vacate judgment
On October 13, 2015, Bridges filed a motion to vacate void judgment for lack of

jurisdiction185 which the trial court denied. 186

178

Id at 1385.

179 Id at 1427.
180

Id at 1437.

181 Id at 1443.
182

ECF No. 25, Attachment 6 at 1444.

183

Id at 1453.

184

Id at 1467.

185 Id at 1468.
186

Id at 1472.
-30-

!!

_ _Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 31 of 78. PagelD#:5656

1.

Ohio Court ofAppeals
On October 15,2015, Bridges,se, filed a timely187 notice of appeal188 to the

Ohio Court of Appeals. In his brief, Bridges asserts the following assignments of error:
1.

“Appellant right to have effective assistance of counsel via U.S. v.
Cronic At (675 F.2d 1126) during trial was violated, causing a
violation to the Defendant 6 Amendment and 14 Amendment to the
Ohio Constitution and all his U.S. Constitutional rights.
(Irregularities in proceedings) - (Crim.R. 33(A)(1) [sic] 5>189

2.

“Appellant was prejudiced when the Appellant Actual/Factual
innocence was no the face of the record. (Pursuant to but not limited
to) Jackson v. Virginia, 443 U.S. 307, 319, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1997); and (Quoting) State v. Byrd, 145 Ohio App.3d
318, 330-331, 762 N.E.2d 1043 (1st Dist.2001); VIA a manifestation
of a substantive violation to all Appellants constitutional rights, VIA
Case Law of Strickland v. Washington (1984), 466 U.S. 668, 104
S.Ct. 2025, 80 L.Ed.2d 674. And Case Law State v. Ayala (1996),
111 Ohio App.3d627, 631,676 N.E.2d 1201. CRIMR.33(A)(5)
ERROR, [sic] »I90

3.

“Court erred when it denied the defendant’s Motion for Appointment
of Private Investigator, thus depriving him of his right to a fair trial
and due process guaranteed under the Sixth and Fourteenth
Amendment to the United States Constitution, Article I, Section 10
and 16 of the Ohio Constitution. Violating CriM. R. (A)(5), abuse of
discretion, and ineffective assistance [sic] )»191
:

The trial court denied Bridges’s motion to vacate judgment on October 13,2015,
and Bridges filed his notice of appeal on October 15, 2015; thus, it is timely.
187

188

Id. at 1473.

189

Id. at 1481.

190

Id. at 1485.

191

Id. at 1505.
-31-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 32 of 78. PagelD #: 5657

4.

“The trial court abused it’s discretion when it denied the appellant
his right to a New Trial; Where His filing was supported with
documentations and supliments. [sic] 3>192

The State filed a motion to dismiss.193 The appellate court referred the State’s
Motion to Dismiss to the panel hearing the merits on Bridges’s appeal.194 Bridges filed an
opposition to the State’s motion to dismiss.195 The State then filed a brief196 to which
Bridges filed a reply.197 Bridges then filed a motion to consolidate this action with CA16-104506. 198 On October 13, 2016, the Ohio Court of Appeals affirmed the trial court’s
decision on Bridge’s motion to correct error and the Ohio Crim. R. 33 motion for a new
trial (CA-16-103634). 199

192

Id at 1507.

193

Id. at 1511.

194

Id at 1520.

195 Id at 1521.
196

Id at 1535.

197 Id. at 1551.
198

Id. at 1561.

199

ECF No. 38, Attachment 2 at 20.
-32-

Case; l:15-cv-02556-JZ Doc#: 47 Filed; 08/09/18 33 of 78. PagelD#: 5658

2.

The Supreme Court of Ohio
On November 3 , 2016, Bridges, pro se, timely200 filed a notice of appeal with the

202
Supreme Court of Ohio. 201 According to the docket sheet, this matter remains pending.

H.

Motion for leave with memorandum in support to “correct err 2903.02(A)
conviction”
Bridges, pro se, filed another post-conviction petition, a “motion to leave with

memorandum in support to correct err 2903.02(A)

»203

The trial court denied the

motion.204
1.

Ohio Court of Appeals
On May 20, 2016, Bridges, pro se, filed a timely205 notice of appeal.206 The record

does not reflect anything further in regard to this appeal.

200

Id., Attachment 3 at 1.

201 Id.
202 Id.
203

ECF No. 25, Attachment 6 at 1567.

204

Id. at 1583.

205

Id. at 1584.

206 Id.
-33-

Case: l:15-cv-02556-JZ Doc#:47 Filed: 08/09/18 34 of 78. PagelD#:5659
1

I.

Petition for writ of habeas corpus
On December 10, 2015, Bridges, pro se, timely filed207 a federal petition for

■ s

I

habeas relief.208 In it, he raises the following grounds for relief:
GROUND ONE:

1.
!

“Petitioner’s convictions for murder and
felonious assault are based on
insufficient evidence, and there is no
evidence in the state trial court record of
guilt beyond a reasonable doubt his
imprisonment by Ohio violates Jackson
v. Virginia. 443 U.S. 307; and Tibbs v.
Florida. 457 U.S. 31 [sic] 55209

GROUND TWO:

“The evidence is insufficient to sustain a
conviction of tampering with evidence
making Petitioner confinement in
violation of the 5th, 6th, 14th Amendments,
[sic] 552 1 0

GROUND THREE:

“The evidence is insufficient to support a
finding of guilty beyond a reasonable
doubt of offense against a human corps
in re Winship. 397 U.S. 358 violated,
[sic] 55211

GROUND FOUR:

“Ineffective Assistance of Appellate
Counsel on Appeal in violation of

Ii
e
s

J
I

207

The present petition for federal habeas relief was filed on December 10, 2015.
ECF No. 1. As such, it was filed within one year of the conclusion of Bridges’s direct appeal
in the Ohio courts (April 8, 2014) and so is timely under 28 U.S.C. § 2254(d)(1).
208

ECF No. 1.

209

Id. at 15.

210

Id. at 16.

211 Id.
-34-

!

i

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 35 of 78. PagelD#:5660

Petitioner’s Sixth Amendment Right to
counsel. ?s212
GROUND FIVE:

“The Appellant was denied the effective
assistance of trial counsel guaranteed by
the Sixth Amendment to the United
States Constitution. »213

GROUND SIX:

“Petitioner was denied his right to a
speedy trial in violation of O.R.C.
§2945.71-73, and the United States
Constitution 6th, 14th Amendments. „214

GROUND SEVEN:

“The Petitioner was denied the right to a
fair trial, due to both witness and
prosecutor misconduct during arguments
in violation of his Sixth and Fourteenth
Amendments to the United States
Constitution. »21S

GROUND EIGHT:

“The State of Ohio denied this Petitioner
right to new trial [sic] without due
process or equal protection under the 5th,
6th, 14th Amendment to the United States
Constitution. »216

GROUND NINE:

“The trial court denied the Petitioner due
process of law when it admitted highly
inflammatory and gruesome photo,
where the proative value outweigh the
prejudice to his right to a fair trial, and it

212

Id

213 Id at 19.
214

Id

215 Id at 20.
216

Id
-35-

i

;■

Case; l:15-cv-02556*JZ Doc #: 47 Filed: 08/09/18 36 of 78. PagelD #:5661

denied Mr. Bridges his day in court
[sic]. »217
GROUND TEN;

“The trial court denied the Petitioner’s
Eighth Amendment right to bail. »2I8

GROUND ELEVEN:

“The 8th District Court of Appeals denied
the Petitioner’s fundamental right to
Petition the government courts for
redress, which deny his Federal
Constitutional right to be heard
guaranteed by the First, Fifth, Sixth,
Fourteenth Amendments of United
States Constitution redress requested
[sic]. >j219

GROUND TWELVE:

“The Petitioner was denied his
fundamental rights to redress in the
courts of law was violated where the trial
court denied the Petitioner’s motion for a
new trial, [sic] »220

GROUND THIRTEEN:

“The Petitioner’s imprisonment is in
violation of the United States
Constitution where the pre-trial and trial
transcripts contained evidence of actual
innocence further due to this actual
(factual) innocence evidence any
procedural defaults should be excused
via the 5th, 6th, 14th Amendments U.S.
Constitution, [sic] »221

217 Id. at 21.
218 Id.
™Id.
220

Id. at 22.

221

Id. at 23.
-36-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 37 of 78. PagelD #: 5662

Analysis
A.

Preliminary observations
Before proceeding further, I make the following preliminary observations:
1.

There is no dispute that Bridges is currently in state custody as the
result of his conviction and sentence by an Ohio court, and that he
was so incarcerated at the time he filed this petition. Thus, he meets
the “in custody” requirement of the federal habeas statute vesting
this Court with jurisdiction over the petition.222

2.

There is also no dispute, as detailed above, that this petition was
timely filed under the applicable statute. 223

3.

In addition, Bridges states,224 and my own review of the docket
confirms, that this is not a second or successive petition for federal
habeas relief as to this conviction and sentence225

4.

Moreover, subject to the procedural default arguments raised by the
State, it appears that these claims have been totally exhausted in
Ohio courts by virtue of having been presented through one full
round of Ohio’s established appellate review procedure 226

222 28 U.S.C. § 2254(a); Wardv. Knoblock,, 738 F.2d 134, 138 (6th Cir. 1984).
223 28 U.S.C. § 2254(d)(1); Bronaugh v. Ohio, 235 F.3d 280,283-84 (6th Cir. 2000).
224

See ECF No.l at 9.

225

28 U.S.C. § 2254(b); In re Bowen, 436 F.3d 699, 704 (6th Cir. 2006).

226

28 U.S.C. § 2254(b); Rhines v. Weber, 544 U.S. 269, 274 (2005); O’Sullivan v.
Boerckel, 526 U.S. 838, 842 (1999).
-37-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 38 of 78. PagelD #: 5663-

5.

Finally, Bridges requested the appointment of counsel,227 and counsel
was appointed.228 Appointed counsel filed a motion to withdraw229
and Bridges filed a motion to remove counsel.230 The Court granted
the request and removed appointed counsel.231 Bridges requested an
evidentiary hearing to develop the factual bases of his claims232
which the Court denied.233 Bridges again requested an evidentiary
hearing in his traverse along with an appendix of motions.234

B.

Applicable law

L

AEDPA review
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”),

codified at 28 U.S.C. § 2254, strictly circumscribes a federal court’s ability to grant a writ

227

ECF No. 7; 28 U.S.C. § 2254(h); Rule 8(c), Rules Governing 2254 Cases.

228

ECF No. 9.

229

ECF No. 18.

230

ECF No. 19.

231 ECF No. 20.
232 See ECF No. 7; 28 U.S.C. § 2254(e)(2).
233

ECF No. 11.

234 ECF No. 33. The evidentiary hearing was requested in his traverse and not in his
original petition. New issues may not be raised in the traverse. “[A] court cannot consider
new issues raised in a traverse or reply to the State’s answer.” Burns v. Lafler, 328 F. Supp.
2d 711,724 (E.D. Mich. 2004). Thus, this Court need not address this request. Moreover,
by attaching to his traverse various items that purport to be motions, Bridges has not
submitted these alleged filings to the Court for docketing according to Federal Rules of Civil
Procedure or Rule 7.1 of the Local Civil Rules. These rules contemplate an ability of the
opposing party to respond to properly filed motions, while no response to a traverse is
similarly contemplated. As such, and because as noted above, no new matters may be raised
in the traverse, the Court has not here considered these items.
235 Pub. L. No. 104-132,110 Stat. 1214 (1996).
-38-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 39 of 78. PagelD#:5664

of habeas corpus.236 Pursuant to AEDPA, a federal court shall not grant a habeas petition
with respect to any claim adjudicated on the merits in state court unless the state
adjudication:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established [fjederal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the [sjtate court
proceeding.237
The Supreme Court teaches that this standard for review is indeed both “highly
deferential” to state court determinations238 and “difficult to meet, 5^239 thus preventing
petitioner and federal court alike “from using federal habeas corpus review as a vehicle to
second-guess the reasonable decisions of state courts. 55240
a.

“Contrary to ” or “unreasonable application of’ clearly establishedfederal law
Under § 2254(d)(1), “clearly established Federal law” includes only Supreme

Court holdings and does not include dicta.241 In this context, there are two ways that a

236

See 28 U.S.C. § 2254 (2012).

237

28 U.S.C. § 2254(d) (2012).

238

239
240

Cullen v. Pinholster, 563 U.S. 170,181 (2011) (citation omitted).
Id. (citation omitted).
Rencio v. Lett, 559 U.S. 766,779 (2010).

241 Howes v. Fields, 132 S. Ct. 1181, 1187 (2012) (quoting Williams v. Taylor, 529
U.S. 362, 412 (2000)).
-39-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 40 of 78. PagelD #: 5665

I

I

state court decision can be “contrary to” clearly established federal law:242 (1) in
circumstances where the state court applies a rule that contradicts the governing law set
forth in a Supreme Court case243 or (2) where the state court confronts a set of facts that
are materially indistinguishable from a Supreme Court decision, but nonetheless arrives at
a different result. 244 A state court’s decision does not rise to the level of being “contrary
to” clearly established federal law simply because that court did not cite the Supreme
Court.245 The state court need not even be aware of the relevant Supreme Court
precedent, so long as neither its reasoning nor its result contradicts it. 246 Under the
“contrary to” clause, if materially indistinguishable facts confront the state court, and it
nevertheless decides the case differently than the Supreme Court has previously, a writ
will issue.247 When no such Supreme Court holding exists, the federal habeas court must
deny the petition.
A state court decision constitutes an “unreasonable application” of clearly
established federal law when it correctly identifies the governing legal rule but applies it

242

Brumfield v. Cam, 135 S. Ct. 2269,2293 (2015).

243 Id.
244 Id.
245

Mitchell v. Esparza, 540 U.S. 12, 16 (2003) (per curiam).

246 Id.
247

See id.
-40-

Case: l:15-cv-02556-JZ -Doc #: 47 Filed: 08/09/18 41 of 78. PagelD#: 5666
I

I

unreasonably to the facts of the petitioner’s case.248 Whether the state court unreasonably
applied the governing legal principle from a Supreme Court decision turns on whether the
state court’s application was objectively unreasonable.249 A state court’s application that
is “merely wrong,” even in the case of clear error, is insufficient, 250 To show that a state
court decision is an unreasonable application, a petitioner must show that the state court
ruling on the claim being presented to the federal court “was so lacking in justification
that there was an error well understood and comprehended in existing law beyond any
possibility for fairminded disagreement, »251 Under the “unreasonable application” clause,
the federal habeas court must grant the writ if the State court adopted the correct
governing legal principle from a Supreme Court decision, but unreasonably applied that
principle to the facts of the petitioner’s case.
b.

"Unreasonable determination ” of the facts
The Supreme Court has recognized that § 2254(d)(2) demands that a federal

habeas court accord the state trial courts substantial deference:252 Under § 2254(e)(1), “a
determination of a factual issue made by a [sjtate court shall be presumed to be

248

White v. Woodall, 134 S. Ct. 1697,1699 (2014) (quoting Williams v. Taylor, 529
U.S. 362, 407 (2000)).
249

Id.(quoting Lockyear v. Andrade, 538 U.S. 63,75-76. (2003)).

250 Id
251 Id. (quoting Harrington v. Richter, 562 U.S. 86, 103 (2011)).
252 Brumfield, 135 S. Ct. at 2277.
-41-

„Case: l:15-cv-02556-JZ—Doc #: 47 Filed: 08/09/18 '42'ofTSrPagefD #: 5667—

correct. »2S3 A federal court may not characterize a state court factual determination as
unreasonable “merely because [it] would have reached a different conclusion in the first
instance. 5i254 While such deference to state court determinations does not amount to an
“abandonment or abdication of judicial review”or “by definition preclude relief, „255 it is
indeed a difficult standard to meet. “The role of a federal habeas court is to guard against
extreme malfunctions in the state criminal justice systems, not to apply de novo review of
factual findings and to substitute its own opinions for the determination made on the
scene by the trial judges. ii256
2.

Procedural default
A claim not adjudicated on the merits by a state court is not subject to AEDPA

review. 257 Such a claim is subject to procedural default if a petitioner failed to raise it
when state court remedies were still available or the petitioner violated a state procedural
rule. 258 The petitioner must afford the state courts “opportunity to pass upon and correct

253 28 U.S.C. § 2254(e)(1) (2012).
254

Brumfield, 135 S. Ct. at 2277 (quoting Woodv. Allen, 558 U.S. 290, 301 (2010)).

255 Id. (quoting Miller-El v. Cockrell, 537 U.S. 322,340 (2003) (“If reasonable minds
reviewing the record might disagree about the finding in question, on habeas review that does
not suffice to supersede the trial court’s determination.”) (internal quotation marks omitted)).
256

Davis v. Ayala, 135 S. Ct. 2187,2202 (2015) (citation omitted).

257 See Harrington v. Richter, 562 U.S. 86,104 (2011).
258 West v. Carpenter, 790 F.3d 693, 697 (6th Cir. 2015).
-42-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 43 of 78. PagelD#:5668

-

alleged violations of its prisoners’ federal rights, 55259 This requires a petitioner to go
through “one complete round” of the state’s appellate review process,260 presenting his or
her claim to “each appropriate state court, 55261 A petitioner may not seek habeas relief,
then, if he or she does not first “fairly present[] the substance of his [or her] federal
habeas corpus claim to the state courts. 55262
When a state asserts that a violation of a state procedural rule is the basis for
default in a federal habeas proceeding, the Sixth Circuit has long employed a four-part to
test determine whether the claim is procedurally defaulted.263 A petitioner’s violation of a
state procedural rule will bar federal review if the state procedural rule satisfies the
standards set out in the test:264
(1) “[Tjhere must be a state procedure in place that the petitioner failed to
follow. 55265

259

Duncan v. Henry, 513 U.S. 364, 365 (1995) (per curiam) (citation omitted).

260

Boerckel, 526 U.S. at 845.

261

Baldwin v. Reese, 541 U.S. 27, 29 (2004) (emphasis added).

West, 790 F.3d at 697 (quoting Picard v. Connor, 404 U.S. 270, 278 (1971)
(internal quotation marks omitted)).
262

See Maupin v. Smith, 785 F.2d 135 (6th Cir. 1986) (outlining four-part test);
Landrum v. Mitchell, 625 F.3d 905, 916-17 (6th Cir. 2010) (applying test post-AEDPA).
263

264

Jells v. Mitchell, 538 F.3d 478, 488 (6th Cir. 2008).

265 Id. (citing Maupin, 785 F.2d at 138).
-43-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 44 of 78. PagelD #: 5669

(2) “[T]he state court must have denied consideration of the petitioner’s claim on
the ground of the state procedural default. 5>266
(3) “[T]he state procedural rule must be an ‘adequate and independent state
ground, 5267 that is both ‘firmly established and regularly followed.

5 55268

(4) The petitioner cannot demonstrate either “cause for the default and actual
prejudice as a result of the alleged violation of federal law,” or “that failure to consider
the claims will result in a fundamental miscarriage ofjustice. 55269
In order to show “cause” for the default, the petitioner must show that “some
objective factor external to the defense impeded counsel’s efforts to comply with the
State’s procedural rule. >5270 In order to show “prejudice” for the default, the petitioner
must show that the errors at trial “worked to [his or her] actual and substantial
disadvantage, infecting [the] entire trial with error of constitutional dimensions. 55271

266 Id.
Id. (quoting Maupin, 785 F.2d at 138) (“A state procedural rule is an independent
ground when it does not rely on federal law.”) (citing Coleman v. Thompson, 501 U.S. 722,
732)).
267

268

Id. (citation omitted).

269

Id. (quoting Coleman, 501 U.S. at 750).

270

Id. (quoting Murray v. Carrier, All U.S. 478,488 (1986).

271 Id. (quoting United States v. Frady, 456 U.S. 152, 170 (1982) (emphasis in
original).
-44-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 45 of 78. PagelD #: 5670

Additionally, “a credible showing of actual innocense” may also excuse an
otherwise defaulted claim, and effectively allow a petitioner to seek review. 272
Notwithstanding these elements, the Supreme Court has held that a federal habeas
court need not consider an assertion of procedural default before deciding a claim against
the petitioner on the merits.273
3.

Noncognizable claims
The federal habeas statute, by its own terms, restricts the writ to state prisoners in

custody in violation of federal law.274 Accordingly, to the extent a petitioner claims that
his custody is a violation of state law, the petitioner has failed to state a claim upon which
federal habeas relief may be granted.275 In such circumstances, a claim for federal habeas
relief based solely on the ground of purported violation of state law is properly dismissed
by the federal habeas court as non-cognizable. 276

272

McQuiggin v. Perkins, 133 S. Ct. 1924,1931 (2013); see Schulp v. Delo, 513 U.S.
298, 324 (1995) (explaining that a “credible” claim requires “new reliable evidence” and
factual innocence beyond legal insufficiency).
273 Lambrixv. Singletary, 520U.S. 518,525 {1991)',see Wadev. Timmerman-Cooper,
785 F.3d 1059, 1077 (6th Cir. 2015) (“[0]n occasion [the Sixth Circuit] has reached beyond
the procedural-default analysis to address the underlying claim on the merits when it presents
a more straightforward ground for decision.”) (citation omitted).
274 28 U.S.C. § 2254(a).
275 Lewis v. Jeffers, 497 U.S. 764, 780 (1990).
276 Estelle v. McGuire, 502 U.S. 62, 67-68 (1991); Bey v. Bagley, 500 F.3d 514, 519
(6th Cir. 2007).
-45-

-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 46 of 78. PagelD #: 5671

But a claimed error of state law may nevertheless serve as the basis for federal
habeas relief if such error resulted in the denial of “fundamental fairness” at trial.277 The
Supreme Court has made clear that it defines “very narrowly” the category of infractions
that violate the “fundamental faimess”of a trial.278 Specifically, such violations are
restricted to offenses against “‘some principle of justice so rooted in the traditions and
conscience of our people as to be ranked as fundamental.

>„279

The petitioner bears the burden of showing a violation of a principle of
fundamental fairness.280 In so doing, the federal habeas court must follow the rulings of
the state’s highest court with respect to state law281 and may not second-guess a state
court’s interpretation of its own procedural rules.282 Further, while in general distinct
constitutional claims of trial error may not be cumulated to grant habeas relief,283 the
Sixth Circuit has recognized that ‘“[ejrrors that might not be so prejudicial as to amount

277 Estelle, 502 U.S. at 67-68.
278

Bey, 500 F.3d at 522 (quoting Dowlingv. United States, 493 U.S. 342,352 (1990)).

279

Id. at 521 (quoting Montana v. Egelhoff, 518 U.S. 37, 43 (1996)).

280 Id.
281

Wainwright v. Goode, 464 U.S. 78, 84 (1983).

282 Allen v. Morris, 845 F.2d 610,614 (6th Cir. 1988).
283

Williams v. Anderson, 460 F.3d 789, 816 (6th Cir. 2006).
-46-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 47 of 78. PagelD#:5672

to a deprivation of due process when considered alone, may cumulatively produce a trial
setting that is fundamentally unfair. 5»>284
4.

Ineffective assistance of appellate counsel
Under Strickland v. Washington,285 a petitioner establishes ineffective assistance of

counsel by showing first that counsel’s performance was deficient, and then that this
deficient performance prejudiced the petitioner by rendering the proceeding unfair and
the result unreliable. 286 Although Strickland involved the ineffective assistance of trial
counsel, a comparable test applies to claims of ineffective assistance of appellate
counsel.287 In either instance, both prongs of the Strickland test must be met in order for
the writ to be granted; thus, courts need not address the issue of competence if the claim
can be disposed of for failure to show prejudice. 288
In reviewing counsel’s performance, the court recognizes that counsel is presumed
to have rendered adequate assistance.289 The reviewing court must not engage in

284

Gillard v. Mitchell, 445 F.3d 883, 898 (6th Cir. 2006) (quoting Walker v. Engle,
703 F.2d 959, .963 (6th Cir. 1983)).
285

Strickland v. Washington, 466 U.S. 668 (1984).

286

Id. at 687.

287

Bowen v. Foltz, 763 F.2d 191, 194 (6th Cir. 1985).

288

Strickland, 466 U.S. at 697.

289

Id. at 690.
-47-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 48 of 78. PagelD#:5673

hindsight but should evaluate counsel’s performance within the context of the
circumstances existing at the time of the alleged errors. 290
The key is not whether counsel’s choices were strategic but whether they were
reasonable.291 To that end, counsel has a duty to make reasonable investigation into
possible alternatives but, having done so, will be presumed to have made a reasonable
decision in choosing. 292
In the context of appeal, an appellate attorney need not raise every possible issue
on appeal to be effective.293 Effective appellate advocacy often requires that the attorney
select only the most promising issues for review.294 In addition, there can be no
ineffectiveness in failing to argue a non-meritorious issue295
With respect to the prejudice prong, the petitioner must show that there is a
reasonable probability that, but for counsel’s alleged errors, the result of the proceeding

290 Id.
291

Roe v. Flores-Ortega, 528 U.S. 470,481 (2000).

292

Strickland, 466 U.S. at 691.

293

Jones v. Barnes, 463 U.S. 745,752 (1983).

294 Id.
295

Strickland, 466 U.S. at 698.
-48-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 49 of 78. PagelD #: 5674-----

would have been different. 296 A reasonable probability is a probability sufficient to
undermine confidence in the outcome. 297
C.

Recommendation on grounds asserted
As the State observes, Bridges’s petition is “unfocused,” with 13 stated grounds

for relief that, in turn, raise numerous sub-claims and interrelated arguments.298 In that
regard, the State has grouped the claims and sub-claims into three categories: (1)
procedurally defaulted claims; (2) non-cognizable claims of state law; and (3) claims that
are without merit, as determined by AEDPA analysis.299
Bridges himself, as was noted in my order denying his motion to file objections to
a prior order,300 has conceded that the State’s arrangement of his claims is well-organized
and comprehensive. 301 This Report and Recommendation, therefore, organizes the
analysis of the petition along the lines outlined by the State.

296

Id. at 694.

297

Id.

298

ECF No. 25 at 28-29.

299

Id. at 29.

300

ECF No. 45.

301 Id. at 2-3 (citing record).
-49-

Case:.l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 50 of 78. PagelD#:5675

1.

Procedural default
The State maintains that Grounds One, Four (subparts b, d, e, and f), Five, Seven,

Nine, and Eleven are procedurally defaulted because Bridges failed to fairly present these
claims to the Ohio courts and cannot now do so.
a.

302

Ground One
In Ground One, Bridges raises an argument that his conviction for murder and

I
i!

felonious assault are not supported by sufficient evidence. The State argues that Bridges

I

raised only a manifest weight of the evidence claim to the Ohio courts, and that Bridges s

I
I

argument there may be distinguished from the Sixth Circuit’s decision in Nash v.
Eberlin,303 which teaches that in Ohio a manifest weight of the evidence argument
presupposes a sufficiency of the evidence claim. In that regard, the State argues, Bridges
explicitly limited his appellate argument solely to a manifest weight of the evidence claim
when he argued that “the evidence against [me] would have not have been sufficient, if
not for the testimony of Jason Quinones, »304 The brief goes on to argue that the testimony
of Quinones was “not sufficiently credible to have been believed by the jury” and that a
court reviewing for manifest weight of the evidence must reverse a conviction if the
evidence supporting it is “so incredulous or incongruous that no reasonable jury” could

302 ECF No. 25 at 29.
303

Nash v. Eberlin, 258 Fed. Appx. 761, 765 (6th Cir. 2007).

304

ECF No. 25 at 33 (citing record).
-50-

f

I
i

!
I
!

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 51 of 78. PagelD #: 5676

base a conviction on such evidence. 305 The State emphasizes that by framing the claim as
he did, “[n]ot only did Bridges fail to raise a sufficiency argument, he plainly explained
that he was raising a claim distinct from sufficiency,” in that it asked the reviewing court
to re-weigh the evidence without considering the testimony of a particular witness.

306

To that point, Bridges’s brief on appeal explicitly made separate claims for
manifest weight of the evidence and sufficiency of the evidence as to different
convictions. 307 In presenting the argument for the manifest weight claim, Bridges
specifically stated in the appellate brief that the reasoning employed in making a manifest
weight of the evidence argument is different from the reasoning used to argue an
insufficiency of the evidence claim in that a manifest weight claim “has no basis in the
Federal Constitution. »308
Taken together, Bridges’s formulation of the manifest weight claim on direct
appeal clearly distinguishes itself from his sufficiency of the evidence claim. The State is,
therefore, correct that this case is not identical to that of a pro se litigant who is imprecise
in his understanding of the different nature of the two arguments.

3°5 gQp

25, Attachment 1 at 51.

306

ECF No. 25 at 33.

307

Id. at 40.

308 Id. at 51.
-51-

!

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 52 of 78. PagelD#: 5677

But, the decision of the Ohio appeals court here shows, as Nash found, that any
finding that a conviction is supported by the manifest weight of the evidence necessarily
implies that there was also sufficient evidence for that conviction.
In particular, the Ohio court found:
{f 71} We agree that the evidence against Bridges was mostly
circumstantial. The circumstantial evidence against Bridges,
however, was overwhelming. The following evidence was
presented at trial. On the morning of January 5, 2013, Bridges
and Acoff spoke on their cell phones nine times between 7:10
a.m. and 9:15 a.m. Bridges called Acoff six times; Acoff called
Bridges three times.
{^f 72} That same morning, Ace Taxi Service received a call for
service from Bridges's cell phone number. When hearing a
recorded voice requesting the taxi service, Bridges admitted to
police, “that's my voice.” The evidence established that Bridges
called Ace Taxi Service three times on the morning of January
5,2013—at 7:31 a.m., 8:06 a.m., and at 9:23 a.m.
(If 73} In the first call, Bridges requested a taxi to pick up a
female named “Shea” at 911 Rondel Avenue in Cleveland and
take her to 7168 McKenzie Road in Olmsted Township. Acoff
lived at 911 Rondel Avenue. In the first call, Bridges also asked
what the fare would be. Bridges called back at 8:06 a.m.,
wondering what was taking so long. The cab arrived at 7168
McKenzie Road at 9:20 a.m. Bridges called back at 9:23 a.m.,
asking the operator again what the fare was. The taxi driver
testified that Bridges argued with him about the fare when he
arrived at the McKenzie Road address.
{^j 74} The taxi driver identified Acoff in a photo array, dressed
as a woman, as the person he picked up at 911 Rondel Avenue.
The taxi driver also identified Bridges in a photo array as the
person who paid for the taxi when it arrived at 7168 McKenzie
Road.

-52-

„ Case: l:15,cv-02556-JZ- Doc #: 47 Filed:'08/09/18 53 of 78.- PagelD #: 5678~

{T175} The evidence also established that the taxi driver drove
Acoff and Bridges to a convenience store so that Bridges could
get change to pay the taxi driver. The taxi driver drove them
back to the 7168 McKenzie Road address at around 9:33 a.m.
The taxi driver left at that point. He saw Acoff and Bridges
walking toward the house as he drove away.
(Tf 76} Police learned that Acoff began dressing as a woman in
2010. Police further learned that Acoff began prostituting
himself on several websites. Nicole Cantie, Acoffs cousin,
testified that the last known conversation that anyone in the
family had with Acoff was on January 3, 2013, when her
daughter was instant messaging him on Facebook.
{1 77} Quinones testified that he recalled the weekend of
January 5, 2013, because it was his sister's birthday. He
remembered that he could not go to his sister’s birthday party
because he had visitation with his daughter that weekend.
Quinones's girlfriend, Irene, Bill King, and Irene's son's
ex-girlfriend all corroborated Quinones's testimony. All four
testified as to what they did on the night of January 4,2013, and
the morning of January 5,2013.
78} Quinones and King went to Quinones's apartment on
January 5, 2013, to get money from Bridges that he owed
Quinones for the utility bills at the apartment. When they
arrived, sometime in the late morning or early afternoon,
Bridges was standing outside of the apartment in a T-shirt and
jeans, burning items in a fire pit. Quinones remembered
wondering what Bridges was doing outside in the “freezing cold
with a T-shirt and fire going.” King also recalled it being very
cold that day.
{11 79} Quinones and King stated that Bridges's hand was
bleeding; Quinones said that it was “gushing blood
everywhere.” When Quinones tried to go inside of his
apartment, Bridges did not want him to. Quinones did anyway.
Quinones said that there was blood “all the way up the steps” to
the apartment. The house was in disarray. There was blood all
over the kitchen counter and floor. It also appeared that someone
had tried to clean up the blood because it was smeared.
-53-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 54 of 78. PagelD #: 5679—

Quinones said that he was so mad at Bridges, he told Bridges to
clean everything up and leave the apartment.
{^f 80} King said that he took a photo of Bridges standing at the
fire pit in his T-shirt after Quinones came back down from the
apartment because of what Quinones had told him when he got
back in the truck. The photo, which was entered into evidence,
was dated January 5, 2013, and depicted Bridges standing
outside by a fire pit, with snow all over the ground, in a T-shirt
and jeans, burning what appears to be a lot of items. An expert
opined that King had not altered his cell phone in any way.
{^f 81} Quinones said that Bridges gave him different versions
of what happened. A couple of days later, Bridges told Quinones
another version of what happened, that two guys “jumped him
and he fought them off. Quinones did not call police because he
said that he believed Bridges; Bridges even told him that the
men were pressing charges against him for felonious assault.
King said that although he suspected foul play, he did not call
police because Quinones believed what Bridges told him.
82} Finally, most of the blood samples collected by police
matched Bridges's DNA, but one sample collected matched that
of Acoffs DNA. And none of the blood samples collected by
police, throughout the apartment, garage, and stairwell leading
to the apartment, matched Quinones's, King's, or Bland's DNA
(although one “touch DNA” sample matched Bland's, but he
lived in the apartment after Bridges). Indeed, Bridges's blood
was found all through the apartment, in the stairwell, and in the
garage, near rope that was found that matched the rope that was
tied around Acoffs body. Moreover, only Bridges's cell phone
was in the same five-mile cell tower vicinity, near the 7168
McKenzie Road address, as Acoffs cell phone around the last
time Acoffs cell phone was used.
83} After reviewing the entire record, weighing all of the
evidence and all reasonable inferences, considering the
credibility of witnesses and determining whether in resolving
any conflicts in the evidence, we conclude that this is not the
“exceptional case” where the jury “clearly lost its way and
created such a manifest miscarriage ofjustice that the conviction
-54-

T

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 55 of 78. PagelD#: 5680

i

I
i

must be reversed and a new trial ordered.” Thompkins. 78 Ohio
St.3d 380, 387. 678N.E.2d 541. 309
Therefore, based on this extensive analysis of the evidence by the Ohio court, and
mindful of the teaching of Nash, Ground One is not procedurally defaulted for the reasons

I
I
|
II
I
I

set forth above. But, Ground One should be denied on the merits because the decision of
the Ohio court in this regard is not contrary to the clearly established federal law of
Jackson v. Virginia. 310
b.

£

I
iii
i

Ground Four

f

In Ground Four, Bridges argues that his appellate counsel was ineffective for
i;

failing to raise multiple grounds on appeal. The State asserts that some of these grounds
i

were properly raised in Bridges’s Rule 26(B) application to re-open his appeal and may

i

now be addressed on the merits, while other grounds raised here were never presented to
an Ohio court and are thus procedurally defaulted.3 n
i

For purposes of aligning the grounds asserted here in Ground Four and the grounds
properly presented to an Ohio court in the Rule 26(B) application, the State compiled a
table, reproduced below:312

309

Id. at 110.

310

Jackson v. Virginia, 443 U.S. 307 (1979).

311 ECF No. 25 at 34.
3,2 Id. at 36-37.
-55-

^ Case:.l:15-cv-02556-JZ Doc #:-47 Filed: 08/09/18"56 of 78. PagelD #r568-l-

Claim in Bridges’s instant habeas petition

Was the claim raised in Bridges’s 26(B)
application?

Ground 4 (a)(1): Appellate counsel was
ineffective for failing to argue that trial
counsel was ineffective for failing to
investigate DNA evidence

Yes. 26(B) claim 2 (a).

Ground 4 (a)(2): Appellate counsel was
ineffective for failing to argue that trial
counsel failed to present witnesses that
could exonerate Bridges

Yes. 26 (B) claim 2 (b).

Ground 4 (a)(3): Appellate counsel was
ineffective for failing to argue that trial
counsel failed to investigate the
circumstantial evidence

Yes. 26 (B) claim 2 (c)

Ground 4 (a)(4): Appellate counsel was
ineffective for failing to argue that trial
counsel failed to argue claims related to
pre-trial publicity

Yes. 26 (B) claim 2 (d).

Ground 4 (a)(5): Appellate counsel was
ineffective for failing to argue that trial
counsel failed to investigate police reports

Yes. 26 (B) claim 2 (e).

Ground 4 (a)(6): Appellate counsel was
ineffective for failing to argue that trial
counsel failed to present evidence of an
alternative perpetrator

Yes. 26 (B) claim 2 (f).

Yes. 26 (B) claim 2 (h)
Ground 4 (a)(7): Appellate counsel was
ineffective for failing to argue that trial
counsel failed to investigate phone records
Yes. 26 (B) claim 2 (i)
Ground 4 (a)(8): Appellate counsel was
ineffective for failing to argue that trial
counsel failed to file a motion for a private
investigator

-56-

Case: 1:15-cv-02556tJZ^Doc #: 47* Filed: 08/09/18-57 of78-PagelD:#.::5682

Ground 4 (b) Appellate counsel was
ineffective for failing to argue that the
jury was not impartial because several
transgender people were in the gallery
during the trial

No. Bridges made no argument to the
Ohio courts that the composition of the
gallery affected the outcome of his trial.

Ground 4 (c) Appellate counsel was
ineffective for failing to argue that pretrial
publicity impacted Bridges’s case

Yes. 26 (B) claim 3(a).

Ground 4 (d) Appellate counsel was
ineffective for failing to argue that
testimony should have been suppressed.

No. Bridges’s argument is that testimony
regarding clothing he burned was admitted
without proper foundation. Bridges’s
arguments to the Ohio Courts regarding
improper admission of evidence focused
exclusively on hearsay arguments.

Ground 4 (e) Appellate counsel was
ineffective for failing to argue that
Bridges was denied his confrontation
clause rights because of the admission of
the alleged evidence.

No. Bridges made no mention of a
confrontation clause claim in his argument
to the Ohio Supreme Court (his
presentation of a confrontation clause
argument to the Ohio Court of Appeals is
insufficient to exhaust the claim).

!
I

Ground 4 (f) Appellate counsel was
ineffective for failing to argue that
testimony related to the weather on the
date of the crime was false.

No. Bridges made no argument to the
Ohio courts testimony regarding the
weather testimony was false.

f

As the State also observes, those sub-claims of Ground Four - 4(b), 4(d), 4(e), and
4(f) on the above table - which were not fairly presented to an Ohio court as part of the
direct review process and cannot now be presented due to res judicata, must be dismissed
as procedurally defaulted.313 Accordingly, these sub-claims of Ground Four should be
dismissed as procedurally defaulted.

313 Id. at 37-38.
-57-

I

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 58 of 78. PagelD#: 5683-

c.

Grounds Five, Six, Seven, and Nine
The State asserts that Bridges failed to present the following grounds to the Ohio

court of appeals: (1) Ground Five (ineffective assistance of trial counsel); (2) Ground Six
(denial of speedy trial); (3) Ground Seven (denial of fair trial due to witness and
prosecutorial misconduct); and (4) Ground Nine (denial of due process due to improper
admission of inflammatory photographs).314
As the State farther observes, Bridges did raise these grounds to the Ohio court of
appeals in the consolidated appeal from the denial of his motion to post-conviction relief
and from the denial of his motion for acquittal under Ohio Criminal Rule 33, and then
subsequently attempted to raise them to the Supreme Court of Ohio.315 In this posture, the
Ohio court of appeals found that because these claims could have been asserted in the
direct appeal, but were not, consideration of the claims was barred by res judicata.316
By not presenting his claims at the earliest possible opportunity, Bridges failed to
abide by the Ohio procedural requirement of res judicata. The Ohio appeals court
recognized that deficiency and relied on that rule in dismissing these claims. Res judicata
is recognized by the Sixth Circuit as an adequate and independent state law ground for the

3,4 Id. at 38.
315 Id. (citing record).
316 Id. (citing record).
-58-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 59 of 78. PagelD #: 5684

federal habeas court to decline to address the merits of a claim and so dismiss the claim as
procedurally defaulted.317
Accordingly, Grounds Five, Six, Seven, and Nine are procedurally defaulted and
should be dismissed unless Bridges can show a basis for overcoming the default.
d.

Ground Eleven
In this ground, Bridges argues that he was denied a right to a meaningful appeal

because the Ohio appellate court denied his motion to withdraw his appeal from the trial
court’s denial of a motion for a new trial. After addressing this claim on the merits, the
court of appeals affirmed the decision of the trial court.318 Although Bridges subsequently
appealed the decision of the Ohio appeals court to the Supreme Court of Ohio, he did not
include this claim in that appeal.319
As such, Bridges failed to submit this claim to one full round of Ohios established
review procedure and may not now do so because the claim would be barred by res
judicata. Ground Eleven is procedurally defaulted and so should be dismissed unless
Bridge establishes a basis for overcoming the default.
For overcoming these procedural defaults, Bridges — who has filed a voluminous
traverse320 appears to offer ineffective assistance of appellate counsel as a cause for
317 Lundgren v. Mitchell, 440 F.3d 754, 765 (6th Cir. 2009).
318

ECF No. 25 at 39 (citing record).

319

Id. (citing record).

320

ECF No. 33.
-59-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 60 of 78. PagelD#: 5685-

default of other claims. As the State observes, Bridges argues in his Rule 26(B)
application that his appeals attorney was ineffective in not arguing: (1) ineffective
I

assistance of trial counsel - thus potentially excusing the default pertaining to Ground
Five; (2) admission of highly prejudicial evidence - thus potentially excusing the default
as to Ground Nine; and (3) prosecutorial misconduct - potentially excusing the default as
to Ground Seven.321
But, as the State further notes, in the Rule 26(B) application Bridges did not
present any potential excuses for the defaults as to Ground One (sufficiency of the
evidence related to the murder and felonious assault convictions), Ground Six (the speedy
trial claim), and that portion of Ground Seven concerning witness misconduct.322 Thus,
as the State points out, even with liberal construction of the filings in this case, Bridges
has not raised any basis for excusing the procedural default arising in Grounds One, Six,
and portions of Seven.323 Accordingly, these grounds - found procedurally defaulted
above - are without cause to excuse the default.
As to Grounds Five, Nine, and the remaining portion of Seven, Bridges’s
arguments here can be read as claiming that these defaults may be excused by ineffective

321 ECF No. 25 at 40.
322 Id.
323 Id.
-60-

I
!
!■

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 61 of 78. PagelD#:5686

assistance of counsel. The Ohio appeals court analyzed that argument in light of the
clearly established federal law of Strickland v. Washington :324
{^J 1} Andrey Bridges has filed a timely application for
reopening pursuant to App.R. 26031 relating to State v. Bridges,
8th Dist. Cuvahoga No. 100805. 2014-0hio-4570, which
affirmed his convictions for murder, felonious assault,
tampering with evidence, and abuse of a corpse.1 The state has
opposed the application for reopening, and Bridges has filed a
reply brief. For the following reasons, we deny the application
for reopening.
(If 2} In order to establish a claim of ineffective assistance of
appellate counsel, Bridges must demonstrate that appellate
counsel's performance was deficient and that, but for the
deficient performance, the result of his appeal would have been
different. State v. Reed. 74 Ohio St.3d 534.1996-Ohio—21, 660
N.E.2d456. Specifically, Bridges must establish that “there is a
genuine issue as to whether he was deprived of the effective
assistance of counsel on appeal.” App.R. 26('B)(5J.
3} In State v. Smith. 95 Ohio St.3d 127, 2002-Qhio-T753,
766 N.E.2d 588. the Supreme Court of Ohio held that:
Moreover, to justify reopening his appeal, [applicant] “bears the
burden of establishing that there was a ‘genuine issue’ as to
whether he has a ‘colorable claim’ of ineffective assistance of
counsel on appeal.” State v. Spivey, 84 Ohio St.3d at 25,
1998-Ohio-7Q4- 701 N.E.2d 696.
Smith, supra, at 7.
{f 4} In addition, the Supreme Court of Ohio, in State v. Spivey,
84 Ohio St.3d 24. 1998-Qhio-704. 701 N.E.2d 696. held that:
In State v. Reed (19961. 74 Ohio St.3d 534. 535.
1996 Ohio 21. 660 N.E.2d 456. 458. we held that

324

Strickland v. Washington, 466 U.S. 668 (1984).
-61-

Case: l:-15-cv-02556-JZ- Doc #: 47 Filed: 08/09/18 62 of 78-PagelD'#: 5687:

the two prong analysis found in Strickland v.
Washington (19841.466 U.S. 668. 104 S.Ct. 2052,
80 L.Ed. 674. is the appropriate standard to assess
a defense request for reopening under App.R.
26fl3¥5Y [Applicant] must prove that his counsel
were deficient for failing to raise the issues he now
presents, as well as showing that had he presented
those claims on appeal, there was a “reasonable
probability” that he would have been successful.
Thus [applicant] bears the burden of establishing
that there was a “genuine issue” as to whether he
has a “colorable claim” of ineffective assistance of
counsel on appeal.
Id.
{1| 5} It is also well settled that appellate counsel is not
required to raise and argue assignments of error that are
meritless. Jones v. Barnes. 463 U.S. 745. 103 S.Ct.
3308.77 L/F.d.2d 987 09831. Appellate counsel cannot
be considered ineffective for failing to raise every
conceivable assignment of error on appeal. Jones, supra,
at 752; State v. Gumm. 73 Ohio St.3d_41.3,
1995-Qhio-24. 653 N.E.2d 253: State v. Campbell. 69
Ohio St.3d 38. 1994-Ohi0-492. 630 N.E.2d 339.
{^| 6} In Strickland, the United States Supreme Court
also stated that a court's scrutiny of an attorney's work
must be deferential. The court further stated that it is too
tempting for a defendant-appellant to second-guess his
attorney after conviction and appeal and that it would be
all too easy for a court to conclude that a specific act or
omission was deficient, especially when examining the
matter in hindsight. Accordingly, “a court must indulge
a strong presumption that counsel's conduct falls within
the wide range of reasonable professional assistance;
that is, the defendant must overcome the presumption
that, under the circumstances, the challenged action
might be considered sound trial strategy.” Id. at 689.
Finally, the United States Supreme Court has firmly
established that appellate counsel possesses the sound
-62-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 63 of 78. PagelD#:5688

discretion to decide which issues are the most fruitful
arguments on appeal. Appellate counsel possesses the
sound discretion to winnow out weaker arguments on
appeal and to focus on one central issue or at most a few
key issues. Jones, supra, at 752.
{^7} Bridges's application sets forth four assigned
errors in which he alleges that his appellate counsel was
ineffective. Under the first assigned error in his
application, Bridges simply summarizes the three
assigned errors that follow it, which does not satisfy the
burden for reopening. See State v. Reeves. 8th Dist,
Cuvahoga No. 100560.2015-Qhio-299,11.6 (the failure
to present any argument in support of an assigned error
is insufficient to meet the burden of proving that
appellate counsel was ineffective). In his reply brief,
Bridges similarly sets forth numerous generalized ways
in which he believes his appellate counsel was
ineffective in connection with his first assigned error;
however, he does not develop any arguments as to how
he was prejudiced by these alleged deficiencies. For
example, he contends his appellate counsel should have
highlighted inconsistencies in the statements Quinones
made to police compared to his trial testimony. Yet,
appellate counsel expressly argued that the convictions
were against the manifest weight of the evidence
because Quinones's testimony was not credible. This
court reviewed the entire record, including the
credibility of Quinones's testimony, and found that the
circumstantial evidence against Bridges was
overwhelming. Bridges did not point to any specific
inconsistencies that he believes should have been
highlighted, and he has not explained how the outcome
of the decision could have been different where the
entire record was already considered by this court.
Bridges. 8th Dist. Cuyahoga No. 100805.
2014—Ohio-4570.1183.
(f 8} Bridges claims his appellate counsel should have
also raised the following arguments on appeal: that there
was an actual conflict between himself and his trial
-63-

Case: l:15-cv-02556-JZ'Doc #:'47-Filed:"08/09/18-64'of78-PageiD #:'5689,

counsel, that trial counsel failed to secure needed
experts, that trial counsel failed to object to improper
and prejudicial prosecutorial remarks, that trial counsel
failed to subpoena his son to testify and that counsel
should have moved the court to issue a gag order “to
prevent the newspaper from reporting the proceedings
and/or criminal background of Bridges to the public.”
Bridges has not cited to any specific prosecutorial
remarks he believes were improper or prejudicial.
Further, many of the foregoing arguments require
reference to material that is outside the trial court record
and would be improper for appellate counsel to raise in
the direct appeal.
{^f 9} It is well settled that “appellate review is strictly
limited to the record.” State v. Ellis. 8th Dist. Cuyahoga
No. 90844. 7.009—Ohio—4359.1 6. citing The WarderL
Bushnell & Glessner Co. v. Jacobs. 58 Ohio St. 77, 50
N.H. 97(18981 (other citations omitted); State v. Corbin,
8th Dist. CuvahogaNo. 82266.2005-Qhio-4119,117. A
reviewing court cannot add material to the appellate
record and then decide the appeal on the basis of the
new material. Id., citing State v. Ishmail 54 Ohio St.2d
402. 377N.F-2d 500 (1978V “Nor can the effectiveness
of appellate counsel be judged by adding new matter to
the record and then arguing that counsel should have
raised these new issues revealed by the newly added
material.” State v. Moore, 93 Ohio St.3d 649, 650,
2001-0hio-189, 758N.E.2d 1130.
10} Bridges has also failed to demonstrate any
prejudice stemming from the alleged deficiencies. The
first assigned error does not provide grounds for
reopening the appeal pursuant to App.R. 26(B).
{]) 11} In his second assignment of error, Bridges
maintains that his appellate counsel should have asserted
that the trial court erred by allowing media coverage of
his case or his counsel should have moved for a change
m venue. Bridges generally asserts that the publicity
deprived him of an impartial jury but he has not
-64-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 65 of 78. PagelD#:5690
I

identified any factual basis in the record that would
support this claim. It is within the court's discretion
whether to grant or deny a motion for change of venue.
State v. Thompson. 141 Ohio St.3d 254,
2014-Ohio-4751.23 N.E.3d 1096. f 91. Bridges cannot
establish that the trial court would have granted a
motion for change of venue even if trial counsel had
filed one. In order “to prove that a trial court erred by
denying a change of venue, a defendant must show that
at least one prospective juror was actually biased.” Id. at
^95. Bridges has not identified any specific juror that he
claims was actually biased. “[I]n certain rare cases,
pretrial publicity is so damaging that courts must
presume prejudice even without a showing of actual
bias.” Id. at % 100. A claim of presumed prejudice
requires Bridges to make a clear and manifest showing
of pervasive and prejudicial pretrial publicity. Id. at
101. There is no reasonable probability that appellate
counsel would have prevailed on a claim of presumed
prejudice based on this record. During voir dire, some
jurors indicated that they had been exposed to some
media coverage of the case. Each juror was separately
questioned about their media exposure. In most
instances, the juror's knowledge was very limited and
consisted only of hearing that the body of a transgender
individual had been found in a pond in Olmsted
Township. None of the jurors reported having any
knowledge of Bridges or his criminal history. None of
the jurors had formed any opinion regarding Bridges's
culpability. All of the jurors indicated that they could be
fair and impartial and that they could set aside anything
that they had learned from the pretrial publicity.
12} There is no indication that Bridges received an
unfair trial based on publicity. The second assigned
error does not provide grounds for reopening the appeal.
{^113} In his third assigned error, Bridges maintains that
appellate counsel should have argued that trial counsel
was ineffective in the following ways: failure to
investigate the case, failure to consult with the client to
-65-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 66 of 78. PagelD#:5691

prepare the case, failure to file a suppression motion and
a “motion for in camera inspection,” failure to move for
a private investigator prior to trial, and failure to file a
notice of alibi. In his reply brief, Bridges contends that
his trial counsel's alleged failure to timely investigate the
case and to present relevant evidence affected a
substantial right and prejudiced him. Appellate counsel
could not have successfully raised any of these
arguments in the direct appeal because they would
require speculation or consideration of evidence that is
outside of the record. Ishmail. 54 Ohio St.2d 402. 377
N.E.2d 500: State v, Bavs. 87 Ohio St.3d 15, 28,
1999—Ohio-216. 716 N.E.2d 1126 (prejudice from
counsel's failure to employ investigative services is
speculative where the record does not disclose what
investigations trial counsel had performed or what
information an investigator might have “turned up or
that defense counsel in fact failed to obtain”).
Accordingly, the third assigned error does not establish
a colorable claim of ineffective assistance of appellate
counsel for purposes of reopening the appeal.325
This decision of the Ohio court, which is explicitly based on the controlling federal
law, found that Bridges had not shown any way that his counsel was deficient nor that any
of counsel’s purportedly ineffective actions prejudiced Bridges. That decision is entitled
to AEDPA deference by the federal habeas court. Therefore, unless Bridges can
overcome these procedural defaults by showing actual innocence, the defaults remain.
e.

Actual innocence
Actual innocence may serve to excuse a procedural default. Moreover, it is raised

in Ground Thirteen of the present petition. In addition, a claim of actual innocence has

325 ECF No. 25, Attachment 1 at 362-68.
-66-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 67 of 78. PagelD#:5692-

already been dismissed as a free-standing claim in a separate prior order that preserved
the argument of actual innocence as a potential basis for overcoming a procedural
default.326 Bridges argues actual innocence in his traverse, and raised the argument in
four of his filings in state court. 327 The traverse,328summed up by Bridges in a five page
filing,329 purports to establish actual innocence by asserting, inter alia, that “someone else
admitted to the crime, »330 that witnesses against Bridges were “lying,”331 and that the
detectives “tampered with evidence, »332 In addition, and as the State observes, Bridges
filed with his state court motion for a new trial an affidavit signed by his son stating that
“I know my father would never do anything like this,”333 and a police report noting that an
officer had been told by one person claiming that yet another person had told him that still
two other persons were responsible for the crime.334

326 ECFNo. 21.
327 ECF No. 25 at 43 (citing record).
Bridges erroneously states that his traverse was not filed. ECF No. 36. In fact, as
the record shows, the traverse was filed (ECF No. 43) but because of its length the filing was
a manual filing. The Court has subsequently uploaded the entire filing and it is available on
the ECF system. See ECF No. 46.
328

329

ECF No. 34.

330

Id. at 2 (citing record).

331 Id. (citing record).
332 Id. at 5.
333 ECF No. 25 at 43 (citing record).
334 Id. at 44 (citing record).
-67-

Case: l:15-cv-02556-JZ 'Dor#r47 Filed: 08/09/18 68’of 78. PagelD#: 5693

Initially, as to the affidavit from Bridges’s son, who was obviously not an
eyewitness to the crime, such a belated statement from a family member without first­
hand knowledge is inherently suspect and falls “far short of the sort of extraordinary
showing - like exculpatory scientific evidence, trustworthy eyewitness accounts, or
critical physical evidence — needed to establish actual innocence,

„335

Without such a

statement being subject to cross examination with the jury being able to assess credibility,
the statement standing alone has little probative value, especially since the jury rejected
the alibi defense it was given.
Further, as to the police report of another suspect, Bridges has admitted that this
statement was turned over to his attorney before trial, and Bridges s counsel crossexamined the police officer about the statement, although the questioning was limited
because the statement was hearsay.336 Nevertheless, Bridges cannot now claim that this is
“new evidence” or that it is “reliable.”
Accordingly, Bridges has not presented any new, reliable evidence which would
make it more likely than not that no reasonable juror would have found him guilty. Thus,
for the reasons stated, Ground One, Five, Six, Seven, Nine, and Eleven of Bridges s
petition should be dismissed as procedurally defaulted when nothing has been established
that would overcome that default. Moreover, this analysis also shows that actual
innocence cannot form the basis for overcoming any of Bridges’s procedural defaults.
335 Freeman v. Trombley, 483 Fed. Appx. 51, 60 (6th Cir. 2012).
336 ECF No. 25 at 44 (citing record).
-68-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 69 of 78. PagelD#: 5694

2.

Non-cognizable claims

a.

Grounds Eight and Twelve
In Ground Eight, Bridges asserts that he was denied a right to a new trial without

due process or equal protection. In Ground Twelve, he contends that he was denied his
“fundamental right to redress in the courts” when his motion for a new trial was denied.337
As the State points out, Bridges is in both cases challenging the trial court’s denial
of his motion for a new trial and not his convictions themselves.

In addition, both

current claims are based on an assumed, unstated belief that Bridges has a constitutional
right to a new trial.
It is well-settled that errors in state post-conviction proceedings are not grounds
for federal habeas relief, 339 Even if, as here, the underlying aim may be to overturn the
conviction, federal habeas relief is not the proper means to challenge collateral matters, as
opposed to “the underlying conviction giving rise to the petitioner’s incarceration.
Accordingly, for the reasons stated, Grounds Eight and Twelve should be
dismissed as non-cognizable claims.

337 ECF No. 1.
338

ECF No. 25 at 47.

339

Cress v. Palmer, 484 F.3d 844, 853 (6th Cir. 2007).

340

Kirby v. Dutton, 794 F.2d 245, 247-48 (6th Cir. 1986).
-69-

»340

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 70 of 78. PagelD#:5695 -

b.

Ground Ten
In Ground Ten, Bridges alleges that his pre-trial bail was excessive and that the

bail amount contributed to pre-trial media coverage that denied him the presumption of
innocence.341 He argues that because the jury knew of the allegedly excessive bail
amount, they were prejudiced against him at trial.342
First, post-conviction claims of excessive pre-trial bail have been adjudged moot in
the context of federal habeas proceedings because the petitioner is not in custody as a
result of the supposedly excessive bail, but rather as a result of the subsequent
conviction.343 Further, Bridges’s second argument is essentially an implied bias claim,
inasmuch as he has not claimed, or shown, any actual jury bias. As such, the Sixth Circuit
has held that an implied bias claim cannot be grounds for federal habeas relief.
Accordingly, it is recommended that Ground Ten be found a non-cognizable claim
and dismissed.
c.

Ground Thirteen
In Ground Thirteen, Bridges raises a stand-alone claim of actual innocence. As

noted above, the court earlier denied a motion by Bridges to conduct discovery in support

341 ECFNo. 1.
342 Id.
343 Ivey v. Duffey, No. l:13-cv-914,2015 WL 5215972, at ** 4-5 (S.D. Ohio Sept. 8,
2015)(Merz, M.J.)(Report & Recommendation), adopted, 2015 WL 5835994 (S.D. Ohio Oct.
7, 2015).
344 Johnson v. Louma, 425 F.3d 318, 326 (6th Cir. 2005).
-70-

Case: l:15-cv-02556-JZ Dog #: 47 Filed: 08/09/18 71 of 78. PagelD#:5696

of a claim of actual innocence. As stated there, such a ground has never been recognized
by the Supreme Court as a cognizable claim for habeas relief.345
Accordingly, and for the reasons stated, it is recommended that Ground Thirteen
be found a non-cognizable claim and dismissed.
3.

Merits review

a.

Ground One
In Ground One, Bridges contends that his convictions for murder and felonious

assault are not supported by sufficient evidence.346 As discussed above, this claim should
not be dismissed as procedurally defaulted. Although the Ohio court was not directly
presented with a sufficiency of the evidence argument as to these conviction, its analysis,
recited above, was extensive.
Based on the facts recited by the Ohio appeals court, as understood in light of the
requirements of Ohio law as to murder347 and felonious assault,348 the decision of the Ohio
appeals court was not contrary to the clearly established federal law of Jackson.
Specifically, Ground One should be denied on the merits because the Ohio court decision
was not contrary to clearly established federal law in that, after viewing all the evidence
and reasonable inferences in a light most favorable to the prosecution, a rational juror

345 ECF No. 45.
346

ECF No. 1.

347

Ohio Rev. Code § 2903.02(A).

348

Ohio Rev. Code § 2903.11(A)(1).
-71-

f

__Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 72 of 78. PagelD#: 5697

could have found all the elements of these two offenses beyond a reasonable doubt and so
convicted Bridges.
b.

Grounds Two and Three
The Ohio appeals court reviewed Bridges’s convictions for tampering with the

evidence and for abuse of a corpse under the applicable federal constitutional standard for
sufficiency of the evidence stated above. The court found:
{^f 54} In his second and third assignments of error, Bridges
claims that the state failed to present sufficient evidence for his
convictions of tampering with evidence and offenses against a
human corpse.
{^| 55} “ ‘[Sufficiency5 is a term of art meaning that legal
standard which is applied to determine whether the case may go
to the jury or whether the evidence is legally sufficient to
support the jury verdict as a matter of law.” State v. Thompkins1
78 Ohio St.3d 380. 386. 678N.E.2d 541 (1997), citing Black's
Law Dictionary 1433 (6th Ed. 1990). When an appellate court
reviews a record upon a sufficiency challenge, “the relevant
. inquiry is whether, after viewing the evidence in a light most
favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime proven beyond a
reasonable doubt.” State v. Jenks. 61 Ohio St.3d 259^ 574
N.E,2d 492 119911. paragraph two of the syllabus.
A. Tampering with Evidence
{^J 56} Bridges argues that the evidence was not sufficient to
support his conviction for tampering with evidence. He contends
that even assuming for the sake of argument that there was
sufficient circumstantial evidence to support a conviction for
murder, the fact that he was seen burning material in front of his
residence, or that he “allegedly cleaned up the apartment
according to a single witness,” is not sufficient evidence to
convict him of tampering with evidence beyond a reasonable

-72-

_____ Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 73 of 78. PagelD#:5698
!

doubt. He asserts that “the law does not allow the trier of fact to
convict [him] on mere absence of evidence.”
{^| 57} Tampering with evidence under R.C. 2921.12(A)(T)
provides that “[n]o person, knowing that an official proceeding
or investigation is in progress, or is about to be or likely to be
instituted, shall * * * [a] Iter, destroy, conceal, or remove any
record, document, or thing, with purpose to impair its value or
availability as evidence in such proceeding or investigation[.]”
(Tf 58} Bridges's conviction is not just based on the absence of
evidence, as he claims. Quinones and King testified that when
they arrived at Quinones's apartment on January 5, 2013,
Bridges was standing outside at a fire pit burning what appeared
to be carpet material and jean material. This evidence, coupled
with the fact that Acoffs body was found in the pond without
clothing on the lower portion of his body and the fact that
Acoff s blood was found in the bedroom of the apartment (albeit
one drop-of blood), was sufficient evidence to convict Bridges
of tampering with evidence beyond a reasonable doubt.
{«([ 59} Further, Quinones's testimony that Bridges cleaned up
blood from the scene, as well as Bridges's own statements to
police that he cleaned up blood from the scene (even if he was
claiming that it was only his own blood), also supported a
tampering with evidence conviction. Again, Acoff s blood was
found in Bridges's apartment.
60} Accordingly, the evidence was sufficient to convict
Bridges of tampering with evidence.
B. Abuse ofa Corpse
{^] 61} Bridges argues that the mere concealment of the body in
the pond was not sufficient to convict him of abuse of a corpse.
He further maintains that the fact that Acoff had been stabbed
would not amount to abuse of a corpse because those facts
supported the homicide, which he claims is separate and apart
from abuse of a corpse.

-73-

Case: l:15-cv-02556-JZ Doc #: 47 Filed: 08/09/18 74 of 78. PagelD#:5699

{^[ 62} Abuse of a corpse under R.C. 2927.01(B) provides that
“[n]o person, except as authorized by law, shall treat a human
corpse in a way that would outrage reasonable community
sensibilities.
{^J 63} In State v. Nobles. 106 Ohio Ann.3d 246, 665 N.E.2d
1137 T2dDist.l995\ the defendant killed her son, put his body
in a garbage bag, and kept it in a closet for several days before
disposing of it in a dumpster. The Second District explained this
was sufficient evidence of gross abuse of a corpse, holding that
“gross abuse of a corpse can apparently be found in any attempt
to conceal a body.” Td. at 267. 665 N.E,2d 1137, citing State v..
Eenfre. 12th Dist Butler No. CA93-06-116. 1994 Ohio Am
TEXTS 5419- 1994 WT, 673126 (Dec. 5.1994} (victim found at
the bottom of a river with a 35-pound piece of concrete on her
body); State v. Eades. 2d Dist. Montgomery No. 13807. 1994
Ohio Ann. TEXTS 653. 1994 WL 53834 fFeb. 25, 1994).
(wrapped the body in a blanket, drove to another county and
disposed of the body in “some brush”); State v. Riggs, 4th Dist,
Meins No. 503506. 1993 Ohio Ann. LEXIS 5063, 1993 WL
405491 (Oct. 4. 19931 (dumped the victim's body over a hill);
State v. Wolf. 11th Dist. Lake No. 91-L-096. 1992 Ohio Am
TEXTS 6185. 1992 WT 366985 (Dec. IE 1992) (victim's body
placed in plastic bags and dumped in a vacant lot); State_v
Frazier, 5th Dist. Fairfield No, 13-CA-91. 1991 Ohio App^.
TEXTS 6220. 1991 WT 299524 (Dec. 18.1991) (victim's body
disposed of by weighting it with a concrete block and throwing
it into a creek); and State v. Hoeflich, 5th Dist. Morrow No.
CA—689. 1989 Ohio Ann. LEXIS 275 T 1989 WL 75673 (June
22. 1989! (body placed in the hatchback of a car and later
buried).
{«[ 64} The state presented circumstantial evidence that after
Bridges killed Acoff, he tied a metal pipe and cinder block to
Acoffs body and placed his body in the pond behind the
apartment building. Bridges's treatment of Acoffs body was
sufficient to outrage reasonable community sensibilities.349

349 ECF No. 25, Attachment 1 at 105-108.
-74-

!

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 75 of 78. PagelD#:5700

These decisions of the Ohio appeals court were not unreasonable applications of the
clearly established federal law of sufficiency of the evidence, and, therefore, Grounds Two
and Three should be denied on the merits.
c.

Ground 4(a)(1), 4(a)(6),4(a)(7), 4(a)(8), 4(c), and 4(d)
The Ohio appeals court discussed these sub-claims of Ground Four - all of which

were not procedurally defaulted above — in considering Bridges’s motion to re-open the
appeal under Ohio App. Rule 26(B). The court found the following as to these multiple
claims of ineffective assistance of appellate counsel:
13} In his third assigned error, Bridges maintains that
appellate counsel should have argued that trial counsel was
ineffective in the following ways: failure to investigate the case,
failure to consult with the client to prepare the case, failure to
file a suppression motion and a “motion for in camera
inspection,” failure to move for a private investigator prior to
trial, and failure to file a notice of alibi. In his reply brief,
Bridges contends that his trial counsel's alleged failure to timely
investigate the case and to present relevant evidence affected a
substantial right and prejudiced him. Appellate counsel could
not have successfully raised any of these arguments in the direct
appeal because they would require speculation or consideration
of evidence that is outside of the record. Ishmail 54 Ohio St.2d
402. 377 N.E.2d 500: State v. Bays. 87 Ohio St.3d 15, 28,
1999_.Qhio-216. 716 N.R.2d 1126 (prejudice from counsel's
failure to employ investigative services is speculative where the
record does not disclose what investigations trial counsel had
performed or what information an investigator might have
“turned up or that defense counsel in fact failed to obtain”).
Accordingly, the third assigned error does not establish a
colorable claim of ineffective assistance of appellate counsel for
purposes of reopening the appeal.
(Tf 14} In his application, Bridges appears to be arguing under
his fourth assigned error that his appellate counsel should have
-75-

t

l

Case: l:15-cv-02556*JZ Doc#: 47 Filed: 08/09/18 76 of 78. PagelD#:_570_1

presented an ineffective assistance of trial counsel argument
based on the failure to file a motion to suppress. Bridges failed
in his application to identify the specific testimony or evidence
that he believes was improperly admitted. In his reply brief,
Bridges refers to “the admission of the alleged statements of
Jason Quinones through the testimony of an investigating officer
violated his right to confront witnesses against him * * * ”
However, Quinones was subject to cross-examination at trial. In
any case, Bridges has failed to direct this court to any portion of
the record or trial where he contends his trial counsel should
have objected to the admission of evidence or where any
specific testimony or evidence was improperly introduced to his
prejudice. Accordingly, he has failed to demonstrate any
genuine issue of ineffective assistance of appellate counsel
based on the fourth assigned error. 350
The Ohio court’s analysis here both shows that Bridges did not identify any specific
action by his appellate counsel that may be found to be constitutionally deficient, and also
points out that if any such action could be found, Bridges was not prejudiced by that
behavior. Because the decision of the Ohio appeals court was not an unreasonable
application of the clearly established federal law concerning ineffective assistance of counsel,
these sub-grounds of Ground Four should be denied on the merits.
d,

Ground Four 4(a)(2) - 4(a)(5)
The analysis of the Ohio appeals court concerning the merits of these claims is set

forth above in the discussion of whether ineffective assistance of counsel could serve as a
cause to excuse procedural default. The reasons given there as to why Bridges had not shown
ineffective assistance of counsel as to overcome procedural default also show that the

350

Id. at 368-69.
-76-

Case: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 77 of 78. PagelD#:5702

decision of the Ohio court was not an unreasonable application of clearly established federal
law as to the merits of the ineffective assistance claims themselves.
Conclusion
For the reasons stated, the pro se petition of Andrey Bridges should be dismissed in
part and denied in part as is more fully set forth above.

s/ William H. Baughman, Jr.
United States Magistrate Judge

Dated: August 9,2018

-77-

TZrZiCase: l:15-cv-02556-JZ Doc#: 47 Filed: 08/09/18 78 of 78. PagelD#:5703

Objections
Any objections to this Report and Recommendation must be filed with the Clerk of
Courts within fourteen (14) days of receipt of this notice. Failure to file objections within
the specified time waives the right to appeal the District Court’s order.351

351 See United States v. Walters, 638F.2d 947 (6th Cir. 1981). See also Thomas v. Arn,
474 U.S. 140 (1985), reh ’g denied, 474 U.S. 1111 (1986).
-78-

Case: 20-3493

Document: 11-1

Filed: 10/05/2020

No. 20-3493
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

ANDREY BRIDGES,

FILED
Oct 05, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
DAVID W. GRAY, WARDEN,
Respondent-Appellee.

(1 of 2)

Page: 1

ORDER

BEFORE: SUHRHEINRICH, GILMAN, and LARSEN, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

